<html>
<title> - PROTECTING STUDENTS AND TEACHERS: A DISCUSSION ON SCHOOL SAFETY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   PROTECTING STUDENTS AND TEACHERS:
                     A DISCUSSION ON SCHOOL SAFETY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 27, 2013

                               __________

                            Serial No. 113-6

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-990                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 27, 2013................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     2
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Bond, Bill, former principal; specialist for school safety, 
      National Association of Secondary School Principals........     7
        Prepared statement of....................................     8
    Bontrager, Brett, senior vice president and group executive, 
      Stanley Black & Decker Security Systems Division...........    16
        Prepared statement of....................................    17
    Canady, Mo, executive director, National Association of 
      School Resource Officers (NASRO)...........................    10
        Prepared statement of....................................    12
    Ellis, Frederick E., director, office of safety and security, 
      Fairfax County Public Schools, VA..........................    22
        Prepared statement of....................................    24
    Osher, Dr. David, vice president, American Institutes for 
      Research...................................................    19
        Prepared statement of....................................    21
    Pompei, Vincent, school counselor............................    13
        Prepared statement of....................................    15

Additional Submissions:
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon, questions submitted for the record to:
        Mr. Bond.................................................    76
        Mr. Bontrager............................................    77
        Mr. Canady...............................................    79
        Mr. Ellis................................................    80
        Dr. Osher................................................    81
        Mr. Pompei...............................................    82
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey, questions submitted for the record to:
        Mr. Bond.................................................    76
        Mr. Bontrager............................................    77
        Mr. Canady...............................................    78
        Mr. Ellis................................................    79
        Dr. Osher................................................    80
        Mr. Pompei...............................................    81
    Hudson, Hon. Richard, a Representative in Congress from the 
      State of North Carolina, questions for the record submitted 
      to Mr. Canady..............................................    78
    Mr. Miller, statements for the record:
        The Council for Exceptional Children (CEC) and the 
          Council for Children with Behavioral Disorders (CCBD)..    45
        The NAACP Legal Defense and Educational Fund, Inc........    47
        The National Disability Rights Network (NDRN)............    51
    Mr. Osher:
        ``How Can We Improve School Discipline''.................    55
        Statement: the Interdisciplinary Group on Preventing 
          School and Community Violence..........................    66
    Wilson, Hon. Frederica S., a Representative in Congress from 
      the State of Florida, questions submitted for the record 
      to:
        Mr. Bond.................................................    76
        Mr. Bontrager............................................    77
        Mr. Canady...............................................    78
        Mr. Ellis................................................    79
        Dr. Osher................................................    80
        Mr. Pompei...............................................    82
    Responses to questions submitted from:
        Mr. Bond.................................................    82
        Mr. Bontrager............................................    84
        Mr. Canady...............................................    85
        Mr. Ellis................................................    86
        Dr. Osher................................................    89
        Mr. Pompei...............................................    91


                   PROTECTING STUDENTS AND TEACHERS:
                     A DISCUSSION ON SCHOOL SAFETY

                              ----------                              


                      Wednesday, February 27, 2013

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 12:31 p.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Roe, Walberg, 
Salmon, Guthrie, DesJarlais, Rokita, Gowdy, Roby, Heck, Brooks, 
Hudson, Miller, Andrews, Scott, McCarthy, Tierney, Holt, 
Grijalva, Loebsack, Courtney, Yarmuth, Wilson, and Bonamici.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Cristin Datch, Professional Staff Member; Lindsay 
Fryer, Professional Staff Member; Barrett Karr, Staff Director; 
Nancy Locke, Chief Clerk/Assistant to the General Counsel; 
Krisann Pearce, General Counsel; Mandy Schaumburg, Education 
and Human Services Oversight Counsel; Dan Shorts, Legislative 
Assistant; Nicole Sizemore, Deputy Press Secretary; Alex 
Sollberger, Communications Director; Alissa Strawcutter, Deputy 
Clerk; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Jeremy Ayers, Minority Education Policy Advisor; 
Meg Benner, Minority Education Policy Advisor; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Tiffany Edwards, Minority Press Secretary for 
Education; Jamie Fasteau, Minority Director of Education 
Policy; Brian Levin, Minority Deputy Press Secretary/New Media 
Coordinator; Megan O'Reilly, Minority General Counsel; Rich 
Williams, Minority Education Policy Advisor; and Michael Zola, 
Minority Senior Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    I want to welcome everybody this afternoon to the hearing. 
A couple of administrative notes, we are starting late today 
because of the historic statue dedication, Rosa Parks, in 
Statuary Hall. So I appreciate the witnesses understanding of 
the change in time and my colleagues.
    Well again, thank you for joining us for what is an 
important hearing but one I wish weren't tied frankly to such 
an awful event. Two months have passed since the Sandy Hook 
Elementary School tragedy. Families across America continue to 
grieve with the Newtown community. The sorrow we felt on that 
day remains fresh in our minds and our hearts.
    No one in this room needs me to recount what happened on 
December 14th. Nor do you need a description of what happened 
in Paducah, Kentucky; Littleton, Colorado; or Blacksburg, 
Virginia. We saw the news coverage, we read the stories, we 
watched the interviews.
    While the initial shock may have begun to subside, the 
questions remain. Like many of you, I am angry that such a 
terrible act hasn't come with an explanation. Without such 
answers, how can we work with states and schools to develop a 
solution that will help us move forward? How can we be 
confident something like this can't happen again?
    The purpose of today's hearing is not to assign blame. This 
isn't about us. It isn't about a press release or a bill 
introduction or a media opportunity. This is about students. 
Teachers. Families. Communities. This hearing is about learning 
what goes into protecting our schools and preventing violence. 
This is about ways we can work together to help students feel 
safe.
    Today's hearing stems from a heartbreaking event, but in 
order to have a productive conversation, we must try to focus 
on matters under this committee's jurisdiction. Members on both 
sides of the aisle have offered ideas about how to protect 
students in the classroom. The Obama administration has also 
put forth a series of proposals.
    Last week when I was in my district in Minnesota, I 
traveled, I went to schools, public and private, and had 
meetings with school leaders, the teachers' unions, 
superintendents, school board members, and I discussed and 
looked at what they were doing and how they were addressing 
school safety--everything from lockdown procedures and locking 
doors, and I listened to their concerns. They have ideas; I am 
not sure they have solutions.
    Our witnesses today will share their experiences with 
policies and programs intended to secure schools. I propose we 
come together, just as the families are in every school 
district and community nationwide, to have a comprehensive 
discussion on school safety; one that explores policy ideas on 
state and local actions and will inform how we move forward.
    I would like to extend my sincere appreciation to our 
witnesses for joining us today. We have assembled a panel, a 
fantastic panel, that will offer valuable insight and help us 
understand what state and local school leaders go through as 
they work to keep schools safe.
    I would now recognize the distinguished senior democratic 
member, George Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Two months have passed since the Sandy Hook Elementary School 
tragedy. Families across America continue to grieve with the Newtown 
community. The sorrow we felt on that day remains fresh in our minds 
and hearts.
    No one in this room needs me to recount what happened on December 
14. Nor do you need a description of what happened in Paducah, 
Kentucky; Littleton, Colorado; or Blacksburg, Virginia. We saw the news 
coverage, we read the stories, we watched the interviews.
    While the initial shock may have begun to subside, the questions 
remain. Like many of you, I am angry that such a terrible act hasn't 
come with an explanation. Without such answers, how can we work with 
states and schools to develop a solution that will help us move 
forward? How can we be confident something like this can never happen 
again?
    The purpose of today's hearing is not to assign blame. This isn't 
about us. It isn't about a press release or a bill introduction or a 
media opportunity. This is about students. Teachers. Families. 
Communities. This hearing is about learning what goes into protecting 
our schools and preventing violence. This is about ways we can work 
together to help students feel safe.
    Today's hearing stems from a heartbreaking event. But in order to 
have a productive conversation, we must try to focus on matters under 
this committee's jurisdiction. Members on both sides of the aisle have 
offered ideas about how to protect students in the classroom. The Obama 
administration has also put forth a series of proposals. And our 
witnesses will share their experiences with policies and programs 
intended to secure our schools.
    I propose we come together, just as families are in every school 
district and community nationwide, to have a comprehensive discussion 
on school safety--one that explores policy ideas and state and local 
actions, and will inform how we move forward.
    I'd like to extend my sincere appreciation to our witnesses for 
joining us today. We have assembled a panel that will offer valuable 
insight and help us understand what state and local school leaders go 
through as they work to keep schools safe. I will now recognize my 
distinguished colleague George Miller, the senior Democratic member of 
the committee, for his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman, and thank 
you for agreeing to hold this hearing on such an important 
topic. The horrific events at Newtown, Connecticut shook our 
nation's conscience and continue to do so today. Nothing can be 
more disturbing. Nothing can be more enraging, or more 
despairing than the mass execution of little children.
    To call what happened at Sandy Hook a tragedy is not to do 
it justice. It is beyond tragedy. We will forever search for 
the words that capture this event, the horror of this event, 
the grief of the families, the community, our nation is 
indescribable.
    It is an event that has finally pushed our country to a 
long overdue national debate about mental health, about gun 
violence, about the safety of our children. It is also an event 
that in its magnitude reminds us that violence against children 
is an everyday occurrence in this country.
    Entire classrooms were attacked at Sandy Hook, but children 
one by one are gunned down outside of schools in Chicago and in 
my congressional district. Children in Arizona or Indiana or 
South Carolina go to school every day worrying about the 
bullies and the harassment.
    Sandy Hook is an event that calls on us as policymakers to 
do something not just to prevent the next mass murder but to 
make sure that every school is genuinely a safe place. A school 
must be a place where children feel secure so that they can 
focus on learning, growing, and being kids.
    Stopping an outside intruder from attacking students is 
only the last line of defense when it comes to school safety. 
We need to recognize that violence or the fear of violence does 
not begin or end at the schoolhouse door nor does violence 
necessarily occur during normal school hours or from an 
outsider. We know children in many of the urban areas feel 
unsafe walking to or from school.
    Many students and teachers are aware of the threats of 
bullying on school property, not just during the school day, 
but during off hour activities. A child is vulnerable on so 
many fronts; vulnerable from a madman with a gun, vulnerable 
from school employees whose criminal background has never been 
checked, vulnerable from fellow students whose mental health 
may have never been addressed, vulnerable to gangs who may have 
infiltrated the student body.
    With all of these vulnerabilities, our gut instinct may be 
to turn schools into bank vaults with each student as 
physically secure as gold in Fort Knox, but research is clear 
that simply turning schools into armed fortresses is not the 
answer nor is the answer to turn every potentially wayward 
student into a criminal suspect.
    School safety policies must not be driven by gut instincts 
but by sound evidence of what works. They require the 
comprehension and understanding of physical and emotional needs 
of students, not just the particular hardware or security 
procedures in a building.
    Part of the answer is providing better access to mental 
health services and anti-bullying interventions, and when 
problems do arise from students, disciplinary policies must be 
thoughtful and productive and foster trust between teachers and 
students. Part of the answer is recognizing that the emotional 
and physical needs of our children inside and outside of school 
is a shared responsibility.
    Keeping kids safe requires a coordinated effort from 
teachers, principals, superintendents, community partners, and 
parents, and protecting children from violence and freeing 
students to learn more means insuring the states, districts, 
schools, and communities have the resources and the support 
needed to implement the evidence-based approaches that are 
tailored to the unique needs of students in that area. Doing 
all this is a tall order, but to ask any parent waving goodbye 
to their son or daughter at the bus stop if there is a more 
important work than this.
    We place extraordinary responsibility on schools to meet 
academic, emotional, and physical needs of students. Educators 
repeatedly rise to the occasion. Among the heroes of Sandy Hook 
were a principal, a school psychologist, a classroom teacher 
who gave their lives to protect the young charges. We cannot 
ask them to stand alone. Schools cannot be expected to provide 
a quality education in a safe and secure environment for all of 
the children without support including from us in the Congress.
    So today, I hope we will look at what works for school 
safety, how we can provide a better support of what works; 
however, I want to make it clear when it comes to gun violence, 
the onus should not fall solely on schools to protect children. 
Any school safety changes in the wake of Sandy Hook must be 
implemented in tandem with comprehensive gun violence 
prevention. Common sense strategies are needed to keep guns out 
of the hands of those who intend harm.
    Once a madman with a gun shows up at a schoolhouse door or 
at an office or reception desk or at an Army base, our safety 
policies will have already failed. So what we are looking at 
today is only a small piece of puzzle, but it is an important 
piece.
    And I look forward to working with you, Mr. Chairman, and 
members of the committee on sensible steps to protect children 
from violence both inside and outside of the school, and I want 
to join you in thanking our witnesses. It is an incredible 
panel that you have assembled for joining us today and we look 
forward to their testimony and their insights. Thank you.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Chairman Kline, thank you for agreeing to hold this important 
hearing.
    The horrific event in Newtown, Connecticut shook our nation's 
conscience and continues to do so today. Nothing can be more 
disturbing, nothing can be more enraging or more despairing than the 
mass execution of little children.
    To call what happened at Sandy Hook a tragedy is to not do it 
justice. It is beyond tragedy. We will forever search for the word that 
captures this event. The horror of the event, the grief of the 
families, the community, and our nation is indescribable.
    It is an event that has finally pushed our country into a long 
overdue national debate about mental health, about gun violence, and 
about the safety of our children. It is also an event that, in its 
magnitude, reminds us that violence against children is an everyday 
occurrence in this country. Entire classrooms were attacked at Sandy 
Hook.
    But children, one by one, are gunned down outside of school in 
Chicago and in my congressional district. Children in Arizona, or 
Indiana, or South Carolina, go to school every day worrying about 
bullies and harassment.
    Sandy Hook is an event that calls on us as policymakers to do 
something--not just to prevent the next mass murder but to make sure 
every school is a genuinely safe place. A school must be a place where 
children feel secure so that they can focus on learning, growing, and 
being kids.
    Stopping an outside intruder from attacking students is only the 
last line of defense when it comes to school safety.
    We need to recognize that violence--or the fear of violence--does 
not begin or end at the school house door. Nor does violence 
necessarily occur during normal school hours or from an outsider. We 
know children in many urban areas feel unsafe walking to and from 
school. Many students and teachers are aware of threats of bullying on 
school property, not just during the school day, but during off-hour 
activities.
    A child is vulnerable on so many fronts:
    <bullet> Vulnerable to a mad man with a gun.
    <bullet> Vulnerable to a school employee whose criminal background 
was never checked.
    <bullet> Vulnerable to a fellow student whose mental health issues 
are never addressed.
    <bullet> Vulnerable to gangs who may have infiltrated the student 
body.
    With all of these vulnerabilities, our gut instinct may be to turn 
schools into bank vaults, with each student as physically secure as the 
gold in Fort Knox. And yet research is clear that simply turning 
schools into armed fortresses is not the answer. Nor is the answer to 
turn every potentially wayward student into a criminal suspect
    School safety policies must not be driven by gut instincts, but by 
sound evidence of what works. They require a comprehensive 
understanding of the physical and emotional needs of students, not just 
the particular hardware and security procedures in a building.
    Part of the answer is providing better access to mental health 
services and anti-bullying interventions. And when problems do arise 
from students, disciplinary policies must be thoughtful and productive 
and foster trust between teachers and students. Part of the answer is 
recognizing that the emotional and physical needs of our children 
inside and outside of school is a shared responsibility.
    Keeping kids safe requires a coordinated effort from teachers, 
principals, superintendents, community partners, and parents. And 
protecting children from violence and freeing students to learn means 
ensuring that states, districts, schools and communities have the 
resources and supports needed to implement evidence-based approaches 
that are tailored to the unique needs of students in that area.
    Doing all of this is a tall order. But ask any parent waving good-
bye to their son or daughter at the bus stop if there is more important 
work than this. We place extraordinary responsibility on schools to 
meet the academic, emotional and physical needs of students.
    Educators repeatedly rise to the occasion. Among the heroes of 
Sandy Hook were a principal, a school psychologist, and classroom 
teachers who gave their lives to protect their young charges. We cannot 
ask them to stand alone. Schools cannot be expected to provide a 
quality education and a safe, secure environment for all children 
without support, including from us in Congress.
    So today, I hope we'll look at what works for school safety and how 
we can provide better support for what works. However, I want to make 
clear that, when it comes to gun violence, the onus should not fall 
solely on schools to protect children.
    Any school safety changes in the wake of Sandy Hook must be 
implemented in tandem with comprehensive gun violence prevention. 
Commonsense strategies are needed to keep guns out of the hands of 
those who intend harm.
    Once a mad man with a gun shows up at the school house door, or at 
an office reception desk, or on an army base, our safety policies will 
have already failed. So what we are looking at today is only a small 
piece of the puzzle. But it is an important piece.
    I look forward to working with Chairman Kline and members of this 
committee on sensible steps to protect children from violence, both 
inside and outside of school. And I thank all the witnesses for 
appearing today. I look forward to your testimony.
    I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee Rule 7C, all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our very distinguished 
panel of witnesses.
    First, Mr. Bill Bond serves as a school safety specialist 
for the National Association of Secondary School Principals. He 
served as principal of Heath High School in Paducah, Kentucky 
at the time a school shooting tragedy occurred at Heath.
    Mr. Mo Canady serves as executive director for the National 
Association of School Resource Officers and is past president 
of the Alabama Association of School Resource Officers.
    Mr. Vinnie Pompei is a school counselor in Val Verde 
Unified School District located in Merino Valley, California. 
He is the president-elect of the California Association of 
School Counselors.
    And now I would like to turn to my colleague, a new member 
of the committee, Mrs. Brooks, to introduce our next witness, 
turns out, from her home district.
    Mrs. Brooks?
    Mrs. Brooks. Thank you, Mr. Chairman.
    I have the privilege of introducing someone who brings 
valuable, real-world experience. That is Mr. Brent Bontrager. 
He is a senior vice president and group executive for Stanley 
Security Solutions, a division of Stanley Black & Decker 
located in Fishers, Indiana with other facilities throughout my 
district, and they do focus on such issues as security site 
surveys, they have worked mass notification systems, lock down 
solutions. They have worked with over 10,000 schools throughout 
the country, and I am honored that he is here today.
    Chairman Kline. Thank you. We are honored that he is here 
today as well.
    Dr. David Osher is the vice president in the Education, 
Human Development, and the Workforce Program and co-director of 
the Human and Social Development Program at the American 
Institutes for Research.
    And Mr. Fred Ellis is the director of Office of Safety and 
Security with the Fairfax County Public Schools in Fairfax, 
Virginia. He is a retired major with the Fairfax County Police 
Department.
    Welcome, all.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. It is pretty 
sophisticated. You will each have 5 minutes to present your 
testimony. When you begin, the light in front of you will turn 
green. When 1 minute is left, the light will turn yellow. When 
your time is expired, the light will turn red; pretty 
sophisticated.
    However, the trick comes in in recognizing that red light. 
When the red light comes on, I would ask you to wrap up your 
remarks as best you are able. After everyone has testified, 
members will each have 5 minutes to ask questions of the panel. 
While I am reluctant to drop the gavel after the light turns 
red for the witness, I will because we are pretty pressed for 
time today.
    As sort of an administrative announcement, I have been 
advised by the majority leader's office that we are probably 
going to expect votes around 2:15 or 2:30, so we are going to 
try to keep this moving along, and I would remind my colleagues 
that we also are limited to 5 minutes, and I will be less 
reluctant to tap the gavel and keep that moving.
    I would now like to recognize Mr. Bond for 5 minutes. Your 
microphone, please. Thank you.

       STATEMENT OF BILL BOND, SCHOOL SAFETY SPECIALIST,
      NATIONAL ASSOCIATION OF SECONDARY SCHOOL PRINCIPALS

    Mr. Bond. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for inviting me here today 
to testify on how we can better protect our students, teachers, 
and staff.
    My name is Bill Bond, I am the former principal of Heath 
High School in Paducah, Kentucky. When I was the principal of 
the high school, I had the first of the high-profile school 
shootings, and I had eight kids shot and three girls died. The 
student had five guns and 1,000 rounds of ammunition.
    That event profoundly transformed everyone involved and the 
experience prompted me to reach out to other schools that are 
going through the same situation. After the students who were 
freshman at the time of the incident graduated, I retired from 
the principalship, and for the past 12 years have served as a 
safe school specialist for the National Association of 
Secondary School Principals.
    The shooting at my school was the first high-profile mass 
school shooting, and it was followed rapidly by several others. 
In working with NASSP, I have assisted 12 other schools where 
kids have died. My role is to focus the principal on the 
decisions they will need to make to get the school back 
functioning and to be a resource and to assure them that they 
are on the right path, and to help with the flood of media and 
to respond immediately to the word of a tragedy and to just let 
them deal with the crush of media that they are not used to 
dealing with. I often say to principals, if you have 12 
microphones, you had a bad day.
    To be effective, schools must operate and be perceived as 
safe havens. When parents send their kids to school, they 
believe that the school has thought of and planned for every 
possible situation, and that is a reasonable expectation for 
parents, but it is very hard to meet.
    To be prepared, principals must meet with local responders; 
police, firemen, ambulance drivers, transportation, and define 
everyone's role and to examine the traffic flow around the 
buildings to see where emergency entrance is for vehicles, 
buses, so forth. They need to create lockdown procedures, 
evacuation procedures, unification procedures.
    The good news is that most schools have done this, but the 
document must be a living document. Very often they are 
mandated to do this by the state, they do it, and they don't 
look at the document again. It has to be a living document that 
is constantly evolved and changed.
    Communicating with teachers and staff and parents is the 
hardest part during a crisis, but it is the most important part 
in the recovery process. Angry, uninformed parents will break 
any crisis plan, but most plans were written the months 
following Columbine when expectations for communications were 
different.
    Most schools have not gone back to update that part of the 
plan; to give just one example when a high school student was 
shot a few months ago on the first day of school in Maryland, 
parents got the word from their kids so fast they actually 
showed up before the police.
    That is not a situation you want during a crisis, but it 
shows that parents expect instant communication. When they hear 
nothing from the school they get anxious, they fill that gap of 
information from the news, from text, from their kids, from 
rumors, from social media, and the information may not be 
correct.
    Parents want to know two things. Is my child okay? And when 
can I pick my child up? As we go through this about talking 
about safe schools, I have talked only about school shootings, 
but we are talking about all issues that could happen in a 
school, tornadoes, earthquakes; any disaster affects kids, 
affects those students, and affects those parents. Thank you.
    [The statement of Mr. Bond follows:]

   Prepared Statement of Bill Bond, Former Principal; Specialist for
   School Safety, National Association of Secondary School Principals

    Chairman Kline, Ranking Member Miller, and members of the 
committee, thank you for inviting me here today to discuss school 
safety and how we can better protect our students, teachers, and staff. 
My name is Bill Bond, and I am the former principal of Heath High 
School in Paducah, KY. In December 1997, one of my own students brought 
5 guns and 1,000 rounds of ammunition into the school and shot 8 
students; 3 girls were killed. That event marked a profound 
transformation for everyone involved. And that experience prompted me 
to reach out to other schools that were going through the same 
situation. After the students who were freshman at the time of the 
incident graduated, I retired from the principalship. For the past 12 
years, I have served as the specialist for school safety at the 
National Association of Secondary School Principals (NASSP).
    The shooting at my school was the first of the high-profile mass 
school shootings. It was followed rapidly by several others. In working 
with NASSP, I've assisted at 12 other schools where kids have died. My 
role is to focus the principal on the decisions they'll need to make to 
get the school back up and functioning--to be a resource and reassure 
them that they're on the right path. And to help with the flood of 
media that respond immediately to word of a tragedy. I often tell 
audiences: what's the definition of a bad day for a principal? More 
than 12 microphones.
    To be effective, schools must be operated and perceived as safe 
havens. When parents send their kids to school, they believe the school 
has thought of and planned for every possible situation--and that's a 
reasonable expectation, but one that's very hard to meet.
    So to be prepared, the principal must meet with local responders--
police, firemen, ambulance drivers--and the district transportation to 
look at facilities, define people's roles and examine how the traffic 
flows around the school. They need to create lockdown procedures, and 
evacuation and reunification procedures. Now, the good news is that 
most everyone has a good crisis plan that includes these things. But 
that plan must be a living document--it must be adjustable. One huge 
area where most plans have not adjusted is in the area of crisis 
communications.
    Communicating with teachers, staff, and parents is the hardest part 
of a crisis, but it is extremely important and it's the key to 
recovery. Angry, uninformed parents will break any crisis plan. But 
most plans were written in the months following the Columbine shooting 
in April 1999, when expectations for communication were different. Most 
schools have not gone back to update that part of the plan. To give 
just one example, when a high school student was shot a few months ago 
on the first day of school in Maryland, parents got word from their 
kids so fast they actually showed up before the police. That's not a 
situation you want, but it shows that parents expect instant 
communication today. When they hear nothing from the school, they get 
anxious and they fill that gap with other information--from the news, 
texts from their kids, the rumor mill, and social media. That 
information may not be correct. Parents want to know two things. Is my 
child ok? And when can I get him? And the more parents can hear from 
the school that at least makes progress toward those answers, the more 
it relieves their emotions.

Security Procedures and Equipment
    I'm often asked if school shootings can be prevented with more 
security--cameras and metal detectors, and the like. While they may 
deter some intruders and prevent more weapons from entering our 
schools, that equipment can only go so far. If they really want to, 
kids will find a way around all your security equipment. It's based on 
the notion that: ``We can deter you because our force is greater than 
your force and we will ultimately imprison you or we will kill you.'' 
But that was not a deterrent in most of the school shootings that have 
occurred since Paducah. Those kids already made the decision to die on 
that day, so rational deterrents had no effect on them. Your best 
protection is a trusting relationship between adults and students that 
encourages kids to share responsibility for their safety and share 
information. Kids very often know what's going on in the school and 
what might cause a crisis. So information from students is more 
valuable than any camera or locked door. And kids will give that 
information to an adult they know well and trust. If they don't trust 
you and someone is planning something destructive, it's difficult to 
avoid the tragedy. It's a matter of how many will be killed before he 
stops or kills himself.

School Resource Officers
    The presence of a school resource officer (SRO) can be beneficial 
to the school. An SRO is a law enforcement officer who is also 
specially trained in working with students in a school environment. 
Yes, the SRO is armed, but the benefit of the SRO has little to do with 
the gun on his hip. The SRO is an active member of the school community 
and serves as part of the school leadership team. In many cases, the 
SRO assists the school in crisis planning and personalizing the 
district's emergency management plan to that school. They assist in 
training staff and conducting walkthroughs of the emergency management 
plan and lockdown drills. Some teach classes on the law and drug and 
alcohol prevention. But the most important SRO function is to build 
trusting relationships with the students. The school resource officer 
can (and should) be another adult in the building who will be an 
advocate for the students and help to personalize the learning 
experience for those students. Again, students are much more inclined 
to come forward with information about potential threats if that 
relationship is in place.

Mental Health
    Most educators, particularly principals and teachers, are able to 
recognize in troubled students the signs and symptoms that are known to 
lead to violent behavior, and pinpoint interventions working with their 
colleagues in mental health. More and more, principals are identifying 
students who may need intervention in the earliest grades, often with 
an overwhelming number of cases as early as kindergarten.
    Unfortunately, principals and other school personnel find 
themselves hampered by inefficient systems that prevent them from 
helping students and families access appropriate mental health and 
well-being services. Principals need to be able to maintain 
relationships that are essential to keeping students safe, and they 
must be able to hire appropriate mental health personnel in the school, 
such as guidance counselors, psychologists, and social workers.
    Sadly, there is no simple solution to this complex problem of 
violence directed at schools, regardless of whether the perpetrator is 
a student or an outsider. But we know that there is something schools 
and communities can do. It has been identified time and again by the 
Secret Service, the FBI, and numerous researchers: The most effective 
way to prevent acts of violence targeted at schools is by building 
trusting relationships with students and others in the community so 
that threats come to light and can be investigated as appropriate. The 
solution is a matter of school culture. It's a matter of community 
engagement. It's a matter of public health. The real solution is 
multifaceted and complex, but as each act of violence on a school 
reminds us, it is work we must undertake.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Bond.
    Mr. Canady?

     STATEMENT OF MO CANADY, EXECUTIVE DIRECTOR, NATIONAL 
            ASSOCIATION OF SCHOOL RESOURCE OFFICERS

    Mr. Canady. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for inviting me to testify 
on behalf of the National Association of School Resource 
Officers.
    It is my honor to serve as the executive director for this 
outstanding group of law enforcement and education 
professionals. NASRO is a not-for-profit association founded in 
1991 with a solid commitment to our nation's youth.
    NASRO is comprised of school-based law enforcement 
officers, school administrators, and school security and safety 
professionals working as partners to protect students, faculty, 
and staff and their school community.
    The school resource officer refers to a commissioned law 
enforcement officer selected, trained, and assigned to protect 
and serve the education environment. I cannot emphasize enough 
how critical it is for officers to be properly selected and 
properly trained to function in the school environment. This is 
always a factor in the success or failure of the SRO program.
    The SRO program is most effective when it is built on the 
foundation of interagency collaboration. There should always be 
a formal memorandum of understanding between the law 
enforcement agency and the school district. The role of the SRO 
should be based on the Triad concept of school-based policing.
    This encompasses the strategies of law enforcement and 
formal counseling and education. A typical day for an SRO may 
include traffic direction, problem solving with a student, or 
making a presentation on distracted driving to a classroom of 
high school students.
    Relationship building is certainly an important factor in 
the success of an SRO program. The SRO must strive to build 
positive working relationships with the school administration. 
One way of helping to build these relationships can be through 
the SRO's role on the school safety team.
    Properly trained SRO's are prepared to be a member of 
safety teams and can also take a leadership role in helping to 
develop teams where none exist.
    I spent nearly half of my law enforcement career in school-
based policing. It was without a doubt, the most rewarding 
period of my career. It was more than just a job. It became my 
life's work. I developed positive relationships with 
administrators, faculty members, students, and parents.
    I became an integral part of the Hoover City Schools 
District Crisis Team. By being a part of the school safety 
team, the SRO becomes fully engaged in crisis planning to 
include prevention, preparedness, response, and recovery. SROs 
can provide value to the written plans for a school district. 
They can also assist with campus site assessments as well as 
conducting safety drills.
    The aspect of recovery was one that I had not given a great 
deal of thought to during the early phase of my career in 
school-based law enforcement. It was not until the days 
following November 19, 2002, that it became clear to me the 
importance of the role that a school resource officer can play 
in the recovery portion of a critical incident.
    The unthinkable had happened at our largest high school. 
One student had taken the life of another in the hallway during 
the change of class periods. This resulted in a very large 
crime scene that took some time to secure. The students had to 
remain in a modified lockdown for several hours. We all knew 
that this was putting quite a burden on teachers in particular, 
however they did exactly what they were supposed to do as they 
had been trained.
    The principal asked me to join him in a faculty meeting 
after the students were released. I took the opportunity to 
praise the staff for their good work. One of the reasons that 
faculty members were so well-prepared for an incident such as 
this was due to the school's commitment to maintaining a solid 
school safety team.
    I believe that this faculty meeting was actually the 
beginning of the recovery process. Plans were developed for the 
next day. We thought that our most important job on November 20 
would be to keep this from happening again, to keep weapons out 
of school, to make sure that no retaliation occurred.
    While all of these things were important, it paled in 
comparison to the need of the student body to be comforted and 
reassured. The need for trusted and caring adults became the 
more important issue in this recovery process.
    The school resource officers were certainly still focused 
on security, but we were most definitely more engaged in the 
mental and emotional recovery process.
    The reason for this is because we were much more than just 
a law enforcement presence. We were trusted adults and we 
helped to make a difference in the lives of children during the 
days prior to and most definitely following November 19, 2002.
    Trained and committed police officers are well-suited to 
effectively protect and serve the school community. School 
resource officers contribute too by ensuring a safe and secure 
campus, educating students about law related topics, and 
mentoring students as informal counselors or role models.
    Over the last 23 years of the National Association of 
School Resource Officers has become the world leader in school-
based policing. We have trained thousands of officers based on 
the Triad model of school-based policing and these officers are 
having a positive impact on the lives of children every day. 
Thank you.
    [The statement of Mr. Canady follows:]

          Prepared Statement of Mo Canady, Executive Director,
        National Association of School Resource Officers (NASRO)

    Chairman Kline, Ranking Member Miller, and members of the 
Committee: Thank you for inviting me to testify on behalf of the 
National Association of School Resource Officers. It is my honor to 
serve as the Executive Director for this outstanding group of law 
enforcement and education professionals. NASRO is a not-for-profit 
association founded in 1991 with a solid commitment to our nation's 
youth. NASRO is comprised of school-based law enforcement officers, 
school administrators and school security and safety professionals 
working as partners to protect students, faculty and staff, and their 
school community. The ``school resource officer'' (SRO) refers to a 
commissioned law-enforcement officer selected, trained and assigned to 
protect and serve the education environment. I cannot emphasize enough 
how critical it is for officers to be properly selected and properly 
trained to function in the school environment. This is always a factor 
in the success or failure of the SRO program.
    The SRO program is most effective when it is built on the 
foundation of interagency collaboration. There should always be a 
formal memorandum of understanding between the law enforcement agency 
and the school district. The role of the SRO should be based on the 
triad concept of school based policing. This encompasses the strategies 
of law enforcement, informal counseling and education. A typical day 
for an SRO may include traffic direction, problem-solving with a 
student or making a presentation on distracted driving to a classroom 
of high school students.
    Relationship building is certainly an important factor in the 
success of an SRO program. The SRO must strive to build positive 
working relationships with the school administration. One way of 
helping to build these relationships can be through the SROs role on 
the school safety team. Properly trained SRO's are prepared to be a 
member of safety teams and can also take a leadership role in helping 
to develop teams where none exist.
    I spent nearly half of my law enforcement career in school based-
policing. It was without a doubt the most rewarding period of my 
career. It was more than just a job. It became my life's work. I 
developed positive relationships with administrators, faculty members, 
students and parents. I became an integral part of the Hoover City 
Schools District Crisis Team. By being a part of a school safety team, 
the SRO becomes fully engaged in crisis planning to include Prevention, 
Preparedness, Response and Recovery. SRO's can provide value to the 
written plans for a school district. They can also assist with campus 
site assessments as well as conducting safety drills.
    The aspect of ``Recovery'' was not one that I had given a great 
deal of thought to during the early phase of my career in school-based 
law enforcement. It was not until the days following November 19, 2002 
that it became clear to me the importance of the role that a school 
resource officer can play in the recovery portion of a critical 
incident. The unthinkable had happened at our largest high school. One 
student had taken the life of another in the hallway during the change 
of class periods.
    This resulted in a very large crime scene that took some time to 
secure. The students had to remain in a modified lockdown for several 
hours. We all knew that this was putting quite a burden on teachers in 
particular. However, they did exactly what they were supposed to do, as 
they had been trained. The principal asked me to join him in a faculty 
meeting after the students were released. I took the opportunity to 
praise the staff for their good work. One of the reasons that faculty 
members were so well prepared for an incident such as this, was due to 
the schools commitment to maintaining a solid school safety team.
    I believe that this faculty meeting was actually the beginning of 
the recovery process. Plans were developed for the next day. We thought 
that our most important job on November 20th would be to keep this from 
happening again. To keep weapons out of the school. To make sure that 
no retaliation occurred. While all of those things were important, it 
paled in comparison to the need of the student body to be comforted and 
reassured. The need for trusted and caring adults became the more 
important issue in this recovery process. The school resource officers 
were certainly still focused on security but we were most definitely 
more engaged in the mental and emotional recovery process. The reason 
for this is because we were much more than just a law enforcement 
presence. We were trusted adults and we helped to make a difference in 
the lives of children during the days prior to and most definitely 
following November 19, 2002.
    Trained and committed police officers are well-suited to 
effectively protect and serve the school community. School resource 
officers contribute by ensuring a safe and secure campus, educating 
students about law-related topics, and mentoring students as informal 
counselors and role models. Over the last 23 years, the National 
Association of School Resource Officers has become the world leader in 
school based policing. We have trained thousands of officers based on 
the Triad model of school based policing and these officers are having 
a positive impact on the lives of children every day.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Pompei, you are recognized for 5 minutes.

         STATEMENT OF VINCENT POMPEI, SCHOOL COUNSELOR,
               VAL VERDE UNIFIED SCHOOL DISTRICT

    Mr. Pompei. My name is Vincent Pompei. I am a school 
counselor in southern California. I started out as a middle 
school teacher and became a school counselor to pursue my 
passion--making school a safe and inclusive place for every 
student.
    My story is the story of millions of students across 
America. By 5th grade, I had been targeted and labeled as gay. 
I was teased, pushed, spit on, knives were pulled on me, my 
bike was stolen. I became depressed, considered dropping out of 
school, and by 11th grade, had already attempted suicide twice.
    My teachers looked on as I endured bullying and homophobic 
slurs. I honestly don't think they knew how to intervene 
appropriately. I didn't feel safe, because I wasn't safe.
    I desperately needed an adult I could trust, but it was far 
too risky to seek out support. And I had no idea how to go 
about finding help; there was no information, not even a 
sticker or poster with a phone number to call.
    All through those years, I searched and prayed for just one 
person to make me feel safe. I never found that person during 
those years, but it drove me to want to become a teacher, and 
then a school counselor, to be that person for my students.
    Mass shootings like the one at Sandy Hook Elementary School 
make headlines, but they are rare. Students are far more likely 
to encounter gang violence, bullying, and harassment in 
everyday life. They need access to counseling, support, and 
other mental-health services to cope with those kinds of 
experiences and much more. For example, when dad is beating 
mom, when they become homeless, when they are thinking of 
dropping out, when their parents are deported.
    By now, caseloads have grown so much that counselors have 
no time to put out fires when we should be preventing them from 
igniting in the first place. The situation is the same for 
school nurses, psychologists, social workers, and other school-
based mental health professionals.
    The recommended ratio for school students to counselors is 
250:1. In California, where I live, the ratio is more than 
1,000:1; a caseload not even Superman could handle. In 
Minnesota, it is nearly 800:1 and nationwide, nearly 500:1.
    For some of our students, especially the most vulnerable, 
the resulting loss of services will have lifelong consequences. 
In the short run, an emotional wound may be less visible than a 
physical injury. Over the long run, it can fester and become 
crippling, like a cut in the skin or a broken bone that is not 
cared for properly.
    Meanwhile, evidence mounts that mental well-being and 
academic success go hand in hand. A recent meta-analysis of 
school-based social and emotional learning programs--more than 
270,000 K-12 students were involved--showed participation in 
such programs improved grades and standardized test scores by 
11 percentile points, compared to the control groups.
    When students feel safe and connected at school, they are 
more likely to learn. Yet most educators get no training--we 
call it ``professional development,''--in what it takes to 
create a school climate that nourishes the mental well-being as 
well as academic success.
    If our nation is serious about keeping students safe, that 
has got to change. We must do more than react after the damage 
has been done. We must invest in professional development that 
acknowledges the need for preventive care; a healthy, safe, and 
inclusive school.
    Every member of the school staff needs to know the basics. 
Who is statistically most likely to be the target of bullying, 
harassment, or violence? What to expect when a kid has a 
traumatic experience--whether it is a hurricane, violence at 
home, a shooting, or bullying. How to counsel and change the 
behavior of those who bully or those who behave violently.
    Every member of the school staff must be equipped to 
respond appropriately and effectively to students who is 
troubled or potentially violent. Instead of playing a guessing 
game, it should be routine for educators to receive instruction 
in creating a healthy, safe, and inclusive school climate; just 
as it is routine to receive instruction on first aid for cuts 
and bruises, and what to do when someone chokes on a piece of 
food, or struggles to learn algebra.
    Instead of standing silently by when students shun or 
ridicule someone who is different, school staff should lead by 
example. Embrace diversity. Address problems before they 
escalate. Show students how to resolve conflict in non-violent 
ways using research-proven strategies.
    In short, we need to take teaching students to be good 
citizens as seriously as we take academics. To help keep 
schools and students safe, we must encourage professional 
development in cultural competence, conflict management, and 
anti-bullying initiatives.
    Above all, America must act on what we know to be true. Our 
mental health system is broken and underfunded. Between 2009 
and 2012, the states slashed mental-health spending by $4.3 
billion; the largest reduction since de-institutionalization in 
the 1960s and 1970s.
    Now, there is widespread agreement that mental-health 
services need to be expanded and improved. To keep our students 
safe, we have got to act on what research shows--mental well-
being is critical to academic success. We have got to provide 
visible signs that school is a safe place not for just some, 
but for all. We have got to spend more, not less, to educate 
and care for the whole child.
    On behalf of all school-based mental-health professionals, 
I thank you for this opportunity to present this testimony. 
Thank you.
    [The statement of Mr. Pompei follows:]

         Prepared Statement of Vincent Pompei, School Counselor

    My name is Vincent Pompei. I am a school counselor in southern 
California. I started out as a middle school teacher and became a 
school counselor to pursue my passion: making school a safe and 
inclusive place for every student.
    My story is the story of millions of students all across America.
    By 5th grade, I had been targeted and labeled as gay. I was teased, 
pushed, and spit on. Knives were pulled on me and my bike was stolen. I 
became depressed, considered dropping out, and by the 11th grade, had 
already attempted suicide twice.
    My teachers looked on as I endured bullying and homophobic slurs. I 
honestly don't think they knew how to intervene appropriately.
    I didn't feel safe--because I wasn't.
    I desperately needed an adult I could trust, but it was far too 
risky to seek out support. And I had no idea how to go about finding 
help--there was no information, not even a sticker or poster with a 
phone number to call.
    All through those years, I searched and prayed for just one person 
to make me feel safe. I never found that person during those years, but 
it drove me to want to become a teacher, and then a school counselor--
to become that person for my students.
    Mass shootings like the one at Sandy Hook Elementary School make 
headlines, but they are rare. Students are far more likely to encounter 
gang violence, bullying, and harassment in everyday life. They need 
access to counseling, support, and other mental-health services to cope 
with those kinds of experiences and much more--for example, when Dad is 
beating Mom, when they become homeless, when they're thinking of 
dropping out, when a parent is deported.
    But now, caseloads have grown so much that counselors only have 
time to put out fires--when we should be preventing fires from igniting 
in the first place. The situation is the same for nurses, 
psychologists, social workers, and other school-based mental health 
professionals.
    The recommended ratio of students to counselors is 250-to-1. In 
California, where I live, the ratio is more than 1,000-to-1--a caseload 
not even Superman could handle! In Minnesota, it's nearly 800-to-1 and 
nationwide, nearly 500-to-1. (Source: American School Counselor 
Association).
    For some of our students, especially the most vulnerable, the 
resulting loss of services will have lifelong consequences. In the 
short run, an emotional wound may be less visible than a physical 
injury. Over the long run, it can fester and become crippling, like a 
cut in the skin or a broken bone that is not cared for properly.
    Meanwhile, evidence mounts that mental well-being and academic 
success go hand in hand. A recent meta-analysis of school-based social 
and emotional learning programs--more than 270,000 K-12 students were 
involved--showed participation in such programs improved grades and 
standardized test scores by 11 percentile points, compared to control 
groups. (Source: National Association of School Psychologists)
    When students feel safe and connected at school, they are more 
likely to learn. Yet most educators get no training--we call it 
``professional development''--in what it takes to create a school 
climate that nourishes mental well-being as well as academic success.
    If our nation is serious about keeping students safe, that has got 
to change. We must do more than react after the damage has been done. 
We must invest in professional development that acknowledges the need 
for ``preventive care''--a healthy, safe, and inclusive school climate.
    Every member of the school staff needs to know the basics: Who is 
statistically most likely to be a target of bullying, harassment, or 
violence. What to expect when a kid has a traumatic experience--whether 
it's a hurricane, violence at home, a shooting at school, or bullying. 
How to counsel and change the behavior of bullies or those who behave 
violently.
    Every member of the school staff must be equipped to respond 
appropriately and effectively to a student who is troubled or 
potentially violent. Instead of playing guessing games, it should be 
routine for educators to receive instruction in creating a healthy, 
safe, and inclusive school climate--just as it is routine to receive 
instruction in first aid for cuts and bruises, in what to do when 
someone chokes on a piece of food or struggles to learn algebra.
    Instead of standing silently by when students shun or ridicule 
someone who is different, school staff should lead by example. Embrace 
diversity. Address problems before they escalate. Show students how to 
resolve conflicts in non-violent ways using research-proven strategies.
    In short, we need to take teaching students to be good citizens as 
seriously as we take academics.
    To help keep schools and students safe, we must encourage 
professional development in cultural competence, conflict management, 
and anti-bullying initiatives.
    Above all, America must act on what we know to be true. Our mental 
health system is broken and underfunded. Between 2009 and 2012, the 
states slashed mental-health spending by $4.3 billion--the largest 
reduction since de-institutionalization in the 1960s and 70s. (Source: 
National Association of State Mental Health Program Directors)
    Now, there's widespread agreement that mental-health services need 
to be expanded and improved.
    To keep our students safe, we've got to act on what the research 
shows: mental well-being is critical to academic success. We've got to 
provide visible signs that school is a safe place not just for some, 
but for all. We've got to spend more, not less, to educate and care for 
the whole child.
    On behalf of all school-based mental-health professionals, I thank 
you for the opportunity to present this testimony.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    Mr. Bontrager, you are recognized for 5 minutes.

      STATEMENT OF BRETT BONTRAGER, SENIOR VICE PRESIDENT
          AND GROUP EXECUTIVE, STANLEY BLACK & DECKER

    Mr. Bontrager. Mr. Chairman, Ranking Member Miller, and 
distinguished Members of the Committee, thank you for the 
opportunity to testify today on the critical issue of school 
safety. My name is Brett Bontrager. I am the Senior Vice 
President and Group Executive of Stanley Security Solutions, 
which is a division of Stanley Black & Decker.
    Stanley Security Solutions is headquartered in Indianapolis 
in Congresswoman Brooks' congressional district. While many of 
you know Stanley Black & Decker for its construction and do-it-
yourself products, our company has also been in the security 
business for many decades.
    It is because of this expertise, decades of school 
experience, and the proximity of our world headquarters in 
Connecticut, in relation to the tragedy in Newtown, that led us 
to be able to immediately play a role in helping the students 
and faculty of Sandy Hook.
    After the decision was made by the town to move the 
students to a decommissioned school, Chalk Hill, our team was 
called in to perform a comprehensive security survey and 
determine what was needed in the building to allow the students 
to move in and be safe and we subsequently installed certain 
products and services to do just that.
    While there is certainly some information on Web sites and 
in other literature regarding school safety, and products do 
exist and are on the market to secure our nation's schools, we 
have not been able to find in our research a Web site or other 
single source of information that comprehensively integrates 
all security needs together.
    For school administrators, board of education members, and 
superintendents, the daily challenges that come with educating 
our children and running a school district are all-consuming. 
Today, these same officials are being asked to become experts 
in security and it is important to know they don't have to be.
    So what is school safety? Certainly, no single lock or 
system. Instead, a comprehensive, integrated security package, 
and long-term roadmap should be designed and implemented at 
each school, which would take into account the unique physical 
nature of that particular school.
    Upon completion of the site evaluation and risk assessment, 
decisions must be then made on the level of security needed, 
but at its core, the integrity of the mechanical solution must 
be maintained. By levels of security, I am referring to 
security products that range from essential hardware and 
mechanical access equipment to wireless situational awareness 
monitoring and every solution in between.
    One clear trend that security providers see is the strong 
need to tie mass notification via an intercom system to a 
school's access control, intrusion monitoring system, and 
security cameras. This allows for coordination and visibility 
for response teams both inside the school as well as from local 
law enforcement or fire personnel in the case of an emergency. 
Lack of integration with the local first responder team can be 
a critical flaw in the school security process.
    One specific example of a school district where we have 
worked with the administration to customize the best solutions 
is one of the largest school districts in Louisiana which 
included 6,000 employees, 42,000 students from pre-K to 12th 
grade, and 66 different schools.
    The district encompassed urban centers, suburban 
neighborhoods, rural towns, and communities. In reviewing 
efficiencies and cost saving measures, the district determined 
that several of their high school campus locations were 
underutilized. It was decided that to fully utilize their 
available space and to reduce overhead costs, each facility 
would integrate seventh and eighth graders.
    This idea however did not come without security challenges. 
It was important that each of these locations be able to 
isolate or limit the interaction between younger and older 
students. The school facilities on average were 60 years old 
and not built with security in mind.
    There were too many ways that unauthorized individuals 
could enter and leave. Every school in the system presented its 
own set of challenges. You will see a one-size-fits-all 
approach is neither practical or recommended.
    This hearing has started what we think should be a 
continued national conversation on school security and safety 
that includes experts from the field and school officials in 
order to learn the best ways to protect our schools.
    With that, Mr. Chairman, I applaud you and the Committee 
for taking a leadership role on this critical issue of school 
safety. I know we can all agree that keeping our children safe 
in their schools is worth all of our time, all of our 
collective experience, and all of our wisdom. I am humbled that 
we might have an opportunity to play a role.
    [The statement of Mr. Bontrager follows:]

    Prepared Statement of Brett Bontrager, Senior Vice President and
   Group Executive, Stanley Black & Decker Security Systems Division

    Mr. Chairman, Ranking Member Miller, and distinguished Members of 
the Committee, thank you for the opportunity to testify today on the 
critical issue of school safety. My name is Brett Bontrager. I am the 
Senior Vice President and Group Executive of Stanley Security 
Solutions, which is a division of Stanley Black & Decker.
    Stanley Security Solutions is headquartered in Indianapolis--in 
Congresswoman Brooks' congressional district. While many of you know 
Stanley Black & Decker for its construction and do-it-yourself 
products, our company has also been in the security business for many 
decades.
    It is because of this expertise, decades of school experience and 
the proximity of our world headquarters in Connecticut in relation to 
the tragedy in Newtown that led us to be able to immediately play a 
role in helping the students and faculty of Sandy Hook. After the 
decision was made by the town to move the students to a decommissioned 
school, Chalk Hill, two tenured employees from our team were called in 
to perform a comprehensive security survey and determine what was 
needed in the building to allow the students to move in and be safe. 
Our team worked through the holidays to make sure that the Chalk Hill 
school building was ready for the children when they returned to school 
to provide a safe and secure environment for the students, parents and 
faculty.
    While there is certainly some information on websites and in other 
literature, and products do exist and are on the market to secure our 
nation's schools, we have not been able to find in our research a 
website or other single source of information that comprehensively 
integrates all of the security needs together. For school 
administrators, board of education members and superintendents, the 
daily challenges that come with educating our children and running a 
school district are all-consuming. Now, in the wake of the Newtown 
tragedy, parents want these same officials to become experts in 
security.
    As we all know security measures and practices are designed to slow 
down an intruder for, every moment that you can delay or slow down an 
intruder to allow time for law enforcement to arrive, can save 
countless lives, but understanding the right solutions and the overall 
task is overwhelming.
    A good starting point is to ask the basic question: What is school 
safety? Certainly, no single lock or system is the answer. Instead, a 
comprehensive, integrated security package and long-term roadmap should 
be designed and implemented, which would take into account the unique 
physical nature of each school. Each school stands on its own 
geographic footprint and has unique physical characteristics. This 
necessitates that prior to the installation of any security system each 
school district should ensure that its school buildings and grounds 
undergo a site evaluation, a risk assessment and a long-term, 
comprehensive security roadmap is developed.
    Upon completion of the site evaluation and risk assessment, 
decisions must then be made on the level of security needed. By levels 
of security I am referring to security products that range from 
essential hardware and mechanical access equipment, such as door 
hardware which includes intruder locks and master key systems, to 
wireless situational awareness monitoring, and every solution in 
between.
    A school can add basic hardware changes, blast and ballistic 
resistant doors, electronic access control or monitoring. Each district 
can work within their own specific needs, considering their budget as 
well as the local rules and regulations.
    One clear trend that security providers see is the strong need to 
tie mass notification via an intercom system to a school's access 
control, intrusion monitoring system and security cameras. This allows 
for coordination and visibility for response teams both inside the 
school as well as from local law enforcement or fire personnel in the 
case of an emergency. Lack of integration with the local first 
responder team can be a critical flaw in the school security process.
    Now that I've walked you through the theoretical and general 
aspects of school safety, I'd like to provide the Committee with some 
specific examples of schools across the country where we have worked 
with the administration to customize the best solutions for their needs 
as well as explain the components of those systems. You will quickly 
see that a one-size, fits-all approach is neither practical nor 
recommended.
    <bullet> One of the best examples I can provide is the work that 
was done with one of the largest school districts in Louisiana which 
included 6,000 employees, 42,000 students from pre-K to 12th grade and 
66 different schools. The district encompasses urban centers, suburban 
neighborhoods, rural towns and communities.
    In reviewing efficiencies and cost saving measures, the district 
determined that several of their high school campus locations were 
underutilized. It was decided that to fully utilize their available 
space and to reduce overhead costs, each facility would integrate 7th 
and 8th graders. This idea however, did not come without security 
challenges. It was important that each of these locations be able to 
isolate or limit the interaction between younger and older students. 
The school facilities on average were 60 years old and not built with 
security in mind. There were too many ways that unauthorized 
individuals could enter and leave. Every school presented its own set 
of challenges, multi-level, construction issues, etc.
    <bullet> A second example is of a school district not far from 
where we are sitting today in a suburban community where the school 
enrollment of approximately 27,000 is divided amongst five high 
schools, eight middle schools and seventeen elementary schools. The 
school division had experienced rapid growth and began to research 
higher levels of student safety in the classroom. The Assistant 
Superintendent for Facilities contacted us to help develop solutions to 
enhance security campus-wide and system-wide and we worked closely with 
the school officials to survey all properties, identify any 
deficiencies, enhance security overall and pull together a 5-year plan 
to make it all happen. It was important to the schools that they 
increase the ability to control all traffic into and out of their 
facilities as the building exteriors were still being secured with keys 
and access was given to a large number of individuals. Ultimately the 
schools ended up implementing a standardized template for key control 
and utilization by establishing a key hierarchy throughout the 
different school levels.
    This hearing has started what we think should be a continued 
national conversation on school security and safety that includes 
experts from the field and school officials in order to learn the best 
ways to protect our schools.
    With that, Mr. Chairman, I applaud you and the Committee for taking 
a leadership role on the critical issue of school safety. I know we can 
all agree that keeping our children safe in their schools is worth all 
of our time, all of our collective experience, and all of our wisdom. I 
am humbled that I might play a role in this effort.
                                 ______
                                 
    Chairman Kline. Thank you.
    Dr. Osher, you are recognized for 5 minutes.

    STATEMENT OF DR. DAVID OSHER, VICE PRESIDENT, AMERICAN 
                    INSTITUTES FOR RESEARCH

    Mr. Osher. Good afternoon, and thank you for this 
opportunity to discuss a subject vitally important to all of 
us. I am David Osher, and I am a vice president at the American 
Institutes for Research. AIR is a nonpartisan behavioral and 
social science research organization based here in Washington. 
We don't advocate for any policy position, so this is a chance 
for me to talk about evidence-based practices in hopes of 
helping you with your decisions.
    Unfortunately, there are no quick fixes or easy solutions 
to respond to the tragedy at Sandy Hook or any of the other 
school shootings that have abruptly altered so many lives, but 
there are steps we can take to change the school environment so 
that students and teachers feel safe.
    And research shows that students and teachers perform 
better when their schools improve discipline by focusing on 
student self-discipline, not external punishment; by promoting 
healthy behaviors, not suppressing unhealthy ones, by 
preventing problem behaviors rather than punishment, by 
building connections to students, not removing them from the 
school community, and by coordinating services systematically, 
not adding services piecemeal.
    Safe and successful schools create positive school climates 
where students, all students, have good social and emotional 
skills, feel physically and emotionally safe, are connected to 
and supported by their teachers, and feel challenged and are 
engaged in learning.
    These schools do this by employing a three-tiered approach 
to social emotional learning, positive behavioral support, the 
support of student and family engagement, and addressing 
students' academic and mental health needs.
    For two decades I have conducted research and led national 
centers, studies, and expert panels that focused on safety, 
violence prevention, the conditions for learning, and student 
support. Today, I would like to focus on some of my experiences 
in Cleveland.
    I led an audit of city schools following a 2007 shooting in 
which a 14-year-old student who had been suspended for 
fighting, returned to his school, which had a security guard, 
shot two teachers and two students, and then took his own life.
    The findings in our report were stark. While discipline was 
harsh and reactive, students and faculty felt unsafe. Services 
were fragmented and driven by adult desire, not by student 
need, and the conditions for learning were poor.
    City, school, and teacher union leaders embraced our 
recommendations and implemented a strategic three-tiered 
approach to improving conditions for learning and reducing 
discipline problems and violence.
    Here are a few of the recommendations we made in 2008. Free 
up guidance counselors and school psychologists so they have 
more time to counsel students. Train school administrators, 
teachers, and security staff to use positive approaches to 
discipline rather than reactive and punitive actions, and to 
develop students in social and emotional competence, and to 
better understand and communicate with the students. Develop an 
early warning and intervention system to identify potential 
mental health issues, and employ student support teams that 
address the identified needs.
    Last month, we released a paper, ``Avoid Simple Solutions 
and Quick Fixes'' examining where Cleveland schools stand 
today. The picture is far from perfect, but progress is clearly 
being made and is attributable to the district-wide use of 
student surveys to monitor progress, employing social emotional 
learning in all elementary schools, transforming punitive in-
school suspension to planning centers to which students can 
self-refer and where students learn self-discipline, and by 
coordinating services through student support teams.
    If we compare 2008/2009 to 2010/2011, which was the data we 
had, the attendance rate district-wide increased 1.5 percent. 
Out-of-school suspensions decreased 58.8 percent district-wide. 
There were statistically significant decreases in the number of 
reported behavioral incidents per school. Disobedient/
disruptive behavior went from 131.8 per school to 73.9 and the 
average number of cases involving fighting and violence went 
from 54 to 36 percent.
    Promotion and prevention are more effective, improve 
conditions for learning, and have less counterproductive or 
harmful side-effects than do suppression and punishment, 
particularly for vulnerable students and students of color.
    Children and youth require safe, supportive schools if they 
are to succeed school and thrive. These needs are particularly 
great for children who struggle with the adversities of 
poverty, such as students in Cleveland where all students are 
eligible for free or reduced lunch.
    Cleveland provides an example of what is possible, even in 
hard times, and even under less than perfect conditions for 
implementing student-centered policies.
    Cleveland's successes are consistent with the 
recommendations of the Interdisciplinary Group on Preventing 
School and Community Violence, a group of prominent researchers 
on school safety, which called for a balanced approach that 
focused on student support and connectedness and stated that, 
quote--``Reliance on metal detectors, security cameras, guards, 
and entry check points is unlikely to provide protection 
against all school-related shootings, including the shootings 
at Sandy Hook Elementary School.''
    These recommendations are not new. They came out before in 
reports in response to Paducah and other studies, and I want to 
thank you for your time.
    [The statement of Mr. Osher follows:]

         Prepared Statement of Dr. David Osher, Vice President,
                    American Institutes for Research

    Good afternoon and thank you for this opportunity to discuss a 
subject vitally important to all of us. I am David Osher, and I am a 
vice president of the American Institutes for Research. AIR is a 
nonpartisan behavioral and social science research organization based 
here in Washington. We don't advocate for any policy position, so this 
is a chance for me to talk about evidence-based practices in hopes of 
helping you with your decisions.
    Unfortunately, there are no quick fixes or easy solutions to 
respond to the tragedy at Sandy Hook--or any of the other school 
shootings that have abruptly altered so many lives. But there are steps 
we can take to change the school environment so that students and 
teachers feel safe. And research shows that students and teachers 
perform better when their schools improve discipline by focusing on 
student self-discipline, not external punishment; by promoting healthy 
behaviors not suppressing unhealthy ones, by preventing on of problem 
behaviors rather than punishment, building connections to students, not 
removing them from the school community, and coordinating services 
systematically, not adding services piecemeal.
    Safe and successful schools create positive school climates where 
students have good social and emotional skills, feel physically and 
emotionally safe, are connected to and supported by their teachers, and 
feel challenged and are engaged in learning. These schools do this by 
employing a three-tiered approach to social emotional learning, 
positive behavioral support, the support of student and family 
engagement, and addressing students' academic and mental health needs.
    For two decades I have conducted research and led national centers, 
studies, and expert panels that focused on safety, violence prevention, 
the conditions for learning, and student support. Today, I would like 
to focus on some of my experiences in Cleveland.
    I led an AIR audit of city schools following a 2007 shooting in 
which a 14-year-old who had been suspended for fighting, returned to 
his school--which had a security guard--shot two teachers and two 
students, and then took his own life.
    The findings in our report were stark. While discipline was harsh 
and reactive, students and faculty felt unsafe. Services were 
fragmented and driven by adult desire, not by student need, and 
conditions for learning were poor.
    City, school, and teacher union leaders embraced our 
recommendations and implemented a strategic tiered approach to 
improving conditions for learning and reducing discipline problems and 
violence.
    Here are a few of the recommendations we made in 2008:
    <bullet> Free up guidance counselors and school psychologists so 
they have more time to counsel students.
    <bullet> Train school administrators, teachers and security staff 
to use positive approaches to discipline rather than reactive and 
punitive actions, to develop student social and emotional competence, 
and to better understand and communicate with the students.
    <bullet> Develop an early warning and intervention system to 
identify potential mental health issues, and employ student support 
teams to address identified needs.
    Last month, we released a paper--``Avoid Simple Solutions and Quick 
Fixes''--examining where Cleveland schools stand today. The picture is 
far from perfect, but progress clearly is being made and is 
attributable to the district wide use of student surveys to monitor 
progress, employing social emotional learning in all elementary 
schools, transforming punitive in-school suspension to planning centers 
to which students can self-refer and where students learn self-
discipline, and coordinating services through student support teams.
    For example, comparing the 2008-2009 school year to the 2010-2011 
year:
    <bullet> The attendance rate district-wide increased 1.5 percentage 
points.
    <bullet> Out-of-school suspensions decreased 58.8 percent district 
wide.
    <bullet> There were statistically significant decreases in the 
average number of reported behavioral incidents per school. 
Disobedient/disruptive behavior went from 131.8 to 73.9 per school, and 
the average number of cases involving fighting/violence went from 54.5 
to 36.4.
    Promotion and prevention are more effective, improve conditions for 
learning, and have less counterproductive or harmful side-affects than 
do suppression and punishment--particularly for vulnerable students and 
students of color. Children and youth require safe and supportive 
schools if they are to succeed in school and thrive. These needs are 
particularly great for children who struggle with the adversities of 
poverty, such as students in Cleveland where all students are eligible 
for free or reduced lunch.
    Cleveland provides an example of what is possible, even in hard 
times, and even under less than perfect conditions for implementing 
student centered policies, which reduce school removal, drop out, and 
the pipeline to prison.
    Cleveland's successes are consistent with the recommendations of 
the Interdisciplinary Group on Preventing School and Community 
Violence. a group of prominent researchers on school safety, which 
called for balanced approach that focused on student support and 
connectedness and stated that ``reliance on metal detectors, security 
cameras, guards, and entry check points is unlikely to provide 
protection against all school-related shootings, including the shooting 
at Sandy Hook Elementary.''
    These recommendations are not new.
    Thank you.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    Mr. Ellis, you are recognized for 5 minutes.

 STATEMENT OF FREDERICK ELLIS, DIRECTOR, OFFICE OF SAFETY AND 
            SECURITY, FAIRFAX COUNTY PUBLIC SCHOOLS

    Mr. Ellis. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for the opportunity to 
speak with you about school security issues.
    As the director of the Office of Safety and Security with 
the Fairfax County Public Schools, school safety and security 
have been my professional and personal focus for the last 12 
and one-half years.
    The Fairfax County Public Schools efforts in emergency 
management and security involve many components. Emergency 
management planning affects both the school and the division 
wide perspectives and utilizes the four phase paradigm that is 
widely accepted; mitigation/prevention, preparation, response, 
and recovery.
    In the Fairfax County Public Schools, each school has an 
individual, site-specific plan that is updated each year and is 
reviewed by staff in the Office of Safety and Security. These 
plans include such things as the identification of the school 
crisis management team and their respective roles, standard 
language and response protocols for emergency actions, 
integration of students with disabilities and special needs 
into the response planning, detailed floor plans identifying 
the location of utility cutoffs, communication protocols, 
drills and training schedules, and the identification of staff 
with specific, relevant skills.
    The school plan also addresses tactical considerations for 
command post locations, designated off-site evacuation 
locations, bus staging areas, and parent-student reunification 
procedures.
    Training is provided by required drills such as fire, bus 
evacuation, lockdown, and tornado drills. These are 
supplemented by customized, site-specific tabletop exercises 
facilitated by staff from my office. Tabletop exercises analyze 
an emergency event in an informal environment. They provide 
participants with an emergency scenario to analyze, identify, 
and resolve issues as well as to prompt constructive discussion 
and increase their awareness of the roles and responsibilities.
    In addition to the individual school crisis plans, the 
Fairfax County Public Schools maintain a division-wide 
emergency operations plan. This plan is implemented when an 
incident overwhelms a school's ability to deal with an 
emergency, an incident that involves multiple sites, or when 
the Fairfax County government requests the school system to 
fulfill its pre-designated obligations within the Fairfax 
County Emergency Operations Plan. Examples of an activation of 
this plan include the response for 9/11, the sniper incidents 
of 2002, and large storm incidents.
    Fairfax County Public Schools has implemented many security 
measures over the past several years, which include the use of 
exit door numbers, access control devices at all elementary and 
middle schools, an anonymous Tip Line system, interoperable 
radio communications with public safety, visitor screening, and 
School Resource Officers in all high and middle schools.
    Much of the efforts of my office also involve the 
establishment and maintenance of relationships with agencies 
that we work with during an incident, such as police, the fire 
and rescue department, the health department.
    In emergencies, relationships are currency. Having them 
facilitates communications and understanding of needs and 
roles. They have to be established prior to an incident and 
they require an ongoing effort.
    Today schools are challenged with a variety of tasks many 
of which are beyond historical expectations but are now 
commonplace. Educators are individuals committed to teaching 
and making the difference in the life of the child. Their 
primary mission is education. They are not public safety 
officials, but accept the roles they are given in today's 
society.
    Likewise, public safety officials are not always familiar 
with school operations and needs. School administrators and 
staff require training, assistance, and support for the 
emergency management and security responsibilities they are 
charged with and embrace.
    I am often asked whether schools need more security 
measures. My answer is that, ultimately, communities play a 
large role in determining the nature and extent of school 
security measures they are willing to accept and to fund.
    Expectations need to be clearly understood and they need to 
be reasonable. Statistically, schools remain incredibly safe 
places for children to be. Perspective, reasonableness, and 
cost are necessary criteria for communities to use in their 
deliberations.
    I know of no school system that guarantees safety and 
security, but I do know that the professionals in the education 
community will do all that they can reasonably do to maintain a 
safe and secure educational environment.
    Again, thank you for the opportunity to speak with you 
about this important topic.
    [The statement of Mr. Ellis follows:]

          Prepared Statement of Frederick E. Ellis, Director,
    Office of Safety and Security, Fairfax County Public Schools, VA

    As the director of the office of safety and security with the 
Fairfax County Public Schools, school safety and security have been my 
professional and personal focus for the last twelve and one half years.
    Fairfax County Public Schools, in Fairfax County, Virginia, is the 
eleventh largest school system in the country with more than 181,000 
students, 23,000 employees, over 200 facilities comprising more than 25 
million square feet and a budget of approximately $2.5 billion. It is a 
very large school system in a diverse and urbanizing suburb of 
Washington, D.C.
    While school security encompasses many topics, my intent today is 
to provide insight into how a school division addresses the many 
challenges that we face by examining the emergency management processes 
and briefly describing some of the security measures we have in place.
    A school-centered emergency management program examines potential 
emergencies and disasters based on the risk posed by likely hazards; 
develops and implements programs and actions aimed toward reducing the 
impact of these events on the individual school; prepares for those 
risks that cannot be eliminated; prescribes the actions required to 
deal with the consequences of the events and takes action to quickly 
recover from the event. Emergency planning focuses on the four phases 
of emergency management:
    1. Mitigation/Prevention
    2. Preparedness
    3. Response
    4. Recovery
    Hazards can be classified into three categories: natural, 
technological, and school specific-hazards. Natural hazards include 
severe weather events. Technological hazards may involve hazardous 
materials or infrastructure failures, while school specific hazards 
address issues that could occur on or near a school, such as a bomb 
threat, a reported weapon or police activity near the school.
    Mitigation is any sustained activity that schools take to reduce 
the loss of life and damage related to events that cannot be prevented, 
while prevention is any step that schools can take to decrease the 
likelihood that an incident will occur.
    School safety audits, security and school climate surveys, 
neighborhood crime data review, hazard and vulnerability analysis 
efforts all play a role in the development of mitigation and prevention 
strategies. Issues identified from these initiatives are used to 
address physical and programmatic remediation.
    The preparedness phase readies schools to respond in a rapid, 
coordinated and effective manner to an emergency. Because it is not 
possible to completely prevent every hazard that poses a risk, 
preparedness measures can help to reduce the impact of hazards by 
taking specific actions before an emergency occurs. An important aspect 
of preparedness is plan development.
    In the Fairfax County Public Schools, each school has an 
individual, site specific plan that is updated each year and is 
reviewed by staff in the office of safety and security. These plans 
include such things as the identification of the school crisis 
management team and their respective roles, standard language and 
response protocols for emergency actions, integration of students with 
disabilities and special needs into the response planning, detailed 
floor plans identifying the location of utility cutoffs, communications 
protocols, drills and training schedules and the identification of 
staff with specific, relevant skills. The school plan also addresses 
tactical considerations for command post locations, designated off-site 
evacuation locations, bus staging areas and parent-student 
reunification procedures.
    A critical component of preparation is training. Training can take 
many forms and in school divisions, these are typically drills and 
tabletop exercises. Drills test a specific operation or function of 
crisis and emergency plans. In Fairfax County, schools regularly 
conduct a variety of drills to demonstrate the steps they should take 
in an emergency. These drills include fire and bus evacuations, 
lockdown and tornado drills. Tabletop exercises analyze an emergency 
event in an informal environment. They provide participants with an 
emergency scenario to analyze and increase their awareness of their 
roles and responsibilities. The exercises are designed to prompt a 
constructive discussion about existing emergency response plans as 
participants identify, investigate and resolve issues. In Fairfax 
County, the office of safety and security provides facilitated tabletop 
exercises to schools on a rotating basis; high and middle schools 
receive them every other year, while elementary schools are provided 
one every three years.
    When emergencies arise, schools must quickly implement the policies 
and procedures developed in the prevention-mitigation and preparedness 
phases to effectively manage the crisis and protect the school 
community. Throughout the response phase, efforts focus on de-
escalating the emergency and taking accelerated steps toward recovery. 
The response phase is often the effort to bring order to chaos and is 
predictably unique to each incident.
    The response phase activities include activating the school's 
crisis management team, delegating responsibilities, establishing an 
incident command post, activating communication and response 
procedures, accounting for all students and staff, liaison with public 
safety agencies and documenting actions. In Fairfax County Public 
Schools, there are five universal responses: Lockdown, Secure the 
Building, Shelter-in-Place, Stay Put-Stay Tuned, and Evacuation. A 
lockdown is used to describe enhanced security measures taken to 
protect against potentially violent intruders that may be inside the 
building. Secure the building is used to prevent unauthorized entry if 
the threat is outside. Shelter-in-Place procedures are used to 
temporarily separate people from a hazardous outdoor atmosphere, such 
as in a hazmat situation. Stay Put-Stay Tuned is implemented at the 
request of public safety officials to limit the impact on the 
transportation infrastructure. An Evacuation is used when locations 
outside of the school building are safer than inside the school.
    The recovery phase is designed to assist students, staff, and their 
families in the healing process and to restore educational operations 
in schools. Recovery is an ongoing process that includes not only the 
mental, emotional and physical healing process of students, faculty and 
staff, but a school's physical (buildings and grounds), fiscal (daily 
business operations) and academic (a return to classroom learning) 
recuperation. A timely return to normalcy is considered a significant 
goal, for both the school and the community.
    In addition to the individual school crisis plans, the Fairfax 
County Public Schools maintain a divisionwide emergency operations 
plan. This plan is implemented when an incident overwhelms a school's 
ability to deal with an emergency, an incident that involves multiple 
sites or when the Fairfax County government requests the school system 
to fulfill its pre-designated obligations within the Fairfax County 
Emergency Operations Plan. The purpose of the divisionwide plan is to 
use school system resources to assist in the resolution of an incident. 
Like the school plan, the divisionwide plan establishes a command 
structure and roles, identifies lines of succession and details 
provisions for staffing the inter-government agency emergency 
operations center, as well as the Fairfax County Public School's 
department operations center. Examples of an activation of this plan 
include the response for 9-11, the sniper incidents of 2002 and large 
storm incidents.
    Fairfax County Public Schools has implemented many security 
measures over the past several years. These include the use of exit 
door numbers, access control devices at all elementary and middle 
schools, an anonymous Tip Line system, interoperable radio 
communications with public safety, visitor screening and School 
Resource Officers in all high and middle schools.
    Much of the efforts of my office also involve the establishment and 
maintenance of relationships with agencies that we work with during an 
incident, such as the police, the fire and rescue department, the 
health department, etc. In emergencies, relationships are currency. 
Having them facilitates communications and understanding of needs and 
roles. They have to be established prior to an incident and they 
require an ongoing effort. An excellent example of this is our School 
Liaison Commander position. This individual is a Fairfax County Police 
Lieutenant who is assigned to the office of safety and security and is 
funded by the Fairfax County Public Schools. The position provides a 
conduit for information exchange, oversees the School Resource Officer 
program, participates in tabletop exercises and is a piece of our on-
scene incident command system staffing.
    Today, schools are challenged with a variety of tasks, many of 
which are beyond historical expectations, but are now commonplace. 
Educators are individuals committed to teaching and making the 
difference in the life of a child. Their primary mission is education. 
They are not public safety officials but accept the roles they are 
given in today's society. Likewise, public safety officials are not 
always familiar with school operations and needs. School administrators 
and staff require training, assistance and support for the emergency 
management and security responsibilities they are charged with and 
embrace.
    I'm often asked whether schools need more security measures. My 
answer is that, ultimately, communities play a large role in 
determining the nature and extent of school security measures they are 
willing to accept and to fund. Expectations need to be clearly 
understood and they need to be reasonable. Statistically, schools 
remain incredibly safe places for children to be. Perspective, 
reasonableness and cost are necessary criteria for communities to use 
in their deliberations. I know of no school system that guarantees 
safety and security, but I do know that the professionals in the 
education community will do all that they can reasonably do to maintain 
a safe and secure educational environment.
    Again, thank you for the opportunity to speak with you about this 
important topic.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    I want to thank all the witnesses for their testimony and 
for their observance of the 5-minute limit. That is probably 
the best of any panel that we have ever had in this committee 
ever so I trust that my colleagues are going to follow that 
fine example.
    I am going to reserve my questions to a little bit later in 
the hearing, and I would like now to go to Dr. DesJarlais for 
the first question.
    Mr. DesJarlais. Thank you, Mr. Chairman, and thank the 
witnesses and all in attendance for this very important hearing 
and topic that affects us all. As a father with a daughter in 
kindergarten and also a freshman and a senior, I know that it 
impacts each and every one of us.
    Mr. Canady, can we start with you and could you tell us how 
a school resource officer interacts with law enforcement 
community during a critical incident?
    Mr. Canady. Well, in most instances, the school resource 
officer is a member of the local law enforcement agency whether 
it be the sheriff's department or the police department. And 
they obviously are going to have trained prior to that or they 
should have in the incident command and know how to function in 
that role when an incident occurs so that it is--I won't say 
seamless--but almost seamless in terms of their role in that 
they would certainly once incident command is established, they 
would respond to the incident commander just like everyone else 
and follow the processes that they issue.
    Mr. DesJarlais. What would you say the role of a school 
resource officer is during a typical school day?
    Mr. Canady. Well, during a typical school day, it can 
really vary. In my testimony I mentioned that they may be doing 
traffic control one minute and, you know, a few minutes later 
they are in a classroom teaching students about distracted 
driving or drunk driving, whatever it may be.
    They are certainly visible. They certainly, if they are 
doing the job right, they are engaged with students. There is 
ongoing relationship building. They certainly should be a 
trusted adult that a student can come to for information, for 
guidance. So they really become part of the team.
    Mr. DesJarlais. And so I am guessing from what you are 
saying, there is quite a difference depending on the age of the 
students in the school?
    Mr. Canady. Well, to some degree, yes, sir. I would say 
that officers in the middle school and high school area 
probably their job is similar to what I just described. At the 
elementary level, traditionally a lot of the work at the 
elementary level that has been done by the SRO has been in the 
classroom in an educational setting.
    Mr. DesJarlais. Just from discussions with educators from 
around my district and throughout the committee hearings over 
the 112th Congress, certainly I think that most people who are 
a little older and went to school at an earlier time recognize 
that there was more discipline, more firm handed discipline in 
classrooms and schools than there is today.
    I see a lot of frustration from our teachers and principals 
feeling that their hands are somewhat tied in order to maybe 
shape behaviors that could prevent some of the harmful 
outcomes.
    How much of an impact do you think that has or anyone else 
who would like to comment on that and what could we do to help 
bring a little bit more discipline back into the schools and 
maybe prevent some of the tragedies that occur not necessarily 
the type in the shooting, but other events.
    Mr. Canady. Well, any officer that has been trained by our 
association has clearly heard that they are not to have a hand 
in the formal school discipline. There is not a role for our 
officers in that. However, obviously, if they are walking 
through the hallway and they see a student doing something that 
they shouldn't, they should address that just like any other 
responsible adult, but the formal school discipline we believe 
belongs in the hands of the educators.
    Mr. DesJarlais. Okay. Thank you.
    Mr. Bond, your testimony focuses a lot on post-incident 
recovery. Can you discuss in a little more detail some of the 
issues that come up during this timeframe that principals need 
to be prepared to deal with?
    Mr. Bond. After an incident the first thing that schools 
have to do is to reestablish trust with the community. If the 
parents do not trust the school to keep their children safe, 
then education is not going to take place at a high level. So 
that is the main thing that you are trying to do is use the 
media, use other methods, and involve the parents in developing 
that trust relationship that the crisis has broken.
    Mr. DesJarlais. Okay, just quickly because my time is 
running out, how do local schools interact with the mental 
health community before and after a critical incident and what 
role do school-based health centers play in identifying and 
assisting and referring students with social and emotional 
challenges?
    Mr. Bond. After school shootings and other crises, you 
always have your local mental health community and NOVA from 
the national come in and you have to work with students, but 
you also have to work with the teachers, but most importantly, 
you have got to get mental health services available to the 
parents. That is where you have the biggest problem. Most kids 
will feel very comfortable in talking to their teacher or 
trusted adult, but you have to address mental health as a whole 
community issue after a crisis.
    Mr. DesJarlais. Thank you, Mr. Bond.
    I yield back.
    Chairman Kline. I thank the gentleman.
    Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Pompei, do you have school resource officers in your 
school or schools you have worked in?
    Mr. Pompei. Our district does.
    Mr. Miller. How do you interact with them?
    Mr. Pompei. Well, you know, they collaborate with the local 
law enforcement so it is a contract that they----
    Mr. Miller. But how do you interact if you are counseling 
students and you have resource officers. Do you talk to one 
another? Do you discuss students? Do you tip one another as to 
maybe problems that a student is having or not, so as you go 
through the day you are aware of these----
    Mr. Pompei. Sure. You will see an SRO in the office of a 
school counselor quite frequently and if not, the school 
counselor will seek out that SRO. Counselors are very uniquely 
qualified. We advocate on behalf of the well-being of that 
student and so we don't typically get involved in discipline. 
We are there, sometimes we mediate, but we do remain neutral to 
make sure that we keep that trusting relationship----
    Mr. Miller. Mr. Canady, is that usual?
    Mr. Canady. I think that is very consistent. And it is 
something that we----
    Mr. Miller. You have separate jobs but you have----
    Mr. Canady. Very separate jobs but at the same time we have 
the same interests and that is the well-being of the student 
and so an SRO who is not interacting effectively with their 
counselor either doesn't understand the job or is not well-
trained.
    Mr. Miller. Mr. Ellis, I think you said something that we 
say very often in this committee is that the schools are among 
the safest places in our environment for students. I just 
wonder how we measure that.
    Mr. Pompei, you have discussed and I discussed in my 
opening that there are a lot of students on campus who are 
living with a certain level of fear or intimidation or acts of 
violence against them that are undetected, you are not aware 
of, but I just--what are we talking about when we talk about 
this blanket statement of safety. Is that against major 
incidents of violence or----
    Mr. Ellis. My reference was for homicides of youth on 
school property because that seems to be the perspective a lot 
of people take. And some of the statistics for instance, the 
Bureau Justice statistics funded by the Department of Education 
for instance from 1992 through 2010 revealed that less than 2 
percent of all homicides of youth from 5 to 18 occur at a 
school.
    Mr. Miller. Mr. Pompei, what happens to incidences of 
violence--I mean of bullying and intimidation? You mentioned 
you are concerned that when you were growing up and the 
question of whether it is your day and how that was handled and 
the intimidation and the physical actions against you. How is 
that handled today in assessing the environment of the school 
and how do resource officers play into that assessment of 
safety?
    Mr. Pompei. Well, quite frankly it is many times on certain 
topics, completely ignored. There is a lack of professional 
development that equips educators to respond effectively and 
appropriately using research proven strategies to address all 
acts of bullying but there are certain ones in more 
conservative areas that are completely ignored and so students 
such as those who identify as LGBT are forced to fend for 
themselves.
    Many times they don't even have the support at home so, you 
know, in my district, we look at research. We look at what 
creates a safe, inclusive welcoming school climate and then we 
ensure that the educators in my district have the professional 
development so they could then all act together in making sure 
that all students feel safe, welcoming.
    Another thing that school counselors do that are--that is 
unique, if I could share--is that we will work to change those 
behaviors. So while the principal may order a suspension, the 
school counselor will work with that student to create pro-
social skills and to curve that behavior so that they don't 
continue to bully and are using different ways to deal with 
their anger or their aggression.
    Mr. Miller. Mr. Osher, that is sort of along the lines of 
what you discussed, the changes made in the Cleveland District 
in terms of internalizing these discussions between faculty, 
counselors, and students and then portioning out some 
responsibility and discipline.
    Mr. Osher. That is right. I mean, if I can connect your 
questions here, I think the real challenge in schools is not 
the high, the low incidence and very traumatic events that we 
want to prevent but it is also low-level aggression that takes 
place consistently and persistently as reflected in bullying 
statistics and things like that.
    And that I would add to the issue that schools are safe, 
but if one looks at the 2009 Institute of Medicine Report on 
the Prevention of Mental Emotional Behavioral Disorders, one of 
the points they make is there are school effects and if I am a 
gay student in a school where I am being treated in a certain 
way or I am a vulnerable student and feeling disconnected, that 
has mental health implications that are harmful to me and can 
really affect the course of my life.
    These can be addressed. They can be addressed by social 
emotional learning. You heard from Mr. Pompei before in terms 
of the meta-analysis. They can be addressed by doing something 
that actually was taking place at Sandy Hook, which was a 
program like responsive classrooms.
    We have class meetings at the beginning of the day that 
really connect young people and teachers and enable people to 
really act with each other in a respectful, healthy, and 
academically productive way. Cleveland is actually moving in 
the same direction now. They are trying to create class 
meetings to connect people on top of the social and emotional 
learning so you can really build a fabric of community that 
holds people together.
    Mr. Miller. Thank you.
    Chairman Kline. Thank you.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman, and thanks to all of the 
panel members for being here today and providing us with your 
experiences and recommendations, and I understand a 
comprehensive approach to decreasing school violence is a lot 
more than just talking about gun violence whether it is from 
disruptive behaviors from bullying to gun violence but I want 
to concentrate on the gun violence issues.
    You know, in the wake of Columbine, which seemed to be the 
national wake-up call, we saw then that police departments 
started to develop the response to the active shooter 
incidents, schools started to develop emergency plans. I think 
Mr. Canady and Mr. Ellis talked about, I mean, you are pretty 
much describing national incident management system approach to 
emergency management and what the schools have done.
    So a sharing of information of maybe how a school CCTV can 
be accessed by law enforcement, blueprints, things along those 
lines. But all of those things are reactive. It requires an 
incident to take place to implement the plan or to you know, 
kind of have the police department show up.
    So what proactive measures can we put in place so that we 
are preventing and not responding to the incidences? That in my 
mind is the goal. We want to prevent the incident. We want to 
be prepared to respond but hopefully, never have to respond. 
And what role should Congress play in that process?
    And I would say, Mr. Bond, in hindsight, having had one of 
the first incidences, what things, in hindsight would you have 
thought could have been in place to actually help prevent the 
incident as opposed to being better able to respond to the 
incident in Paducah?
    Mr. Bond. Having everyone responsible for school safety. 
And by that, I mean teachers, and especially students. Students 
have information about what is dangerous in school, what is 
going on. They know more about what is going on in school than 
the principal does. In my particular school, eight kids saw the 
gun at school 4 days before the shooting took place.
    Not one single one of those kids told me, told a teacher, 
nor did they tell their parents or Sunday school teacher or 
preacher. Information. Information is the most valuable thing 
that we can have in school and that comes from having trusting 
relationships with teachers, trusting relationships with 
students, and students taking responsibility for their own 
school safety.
    Mr. Heck. So, I will go to Mr. Pompei then. So with that 
perspective, being a school counselor, how do we do that? How 
do we get the students to share that information or be more 
proactive in their own defense?
    Mr. Pompei. Sure. Well, the school counselor is actually 
that confidential space that kids will go to and share those 
really scary circumstances whether it is something they see 
like a gun in the school or something that they are dealing 
with internally or something they are experiencing at home or 
in the community.
    I think the issue is, is that when I mentioned in my 
testimony, the ratios of school counselors to students is so 
amazingly high that students know that, and so the likelihood 
that they are going to seek out the support, that safe place 
inside the school counselor's office are somewhat minimized 
when they realize that if they put in a note to see the 
counselor, it might be 2 days before they get seen or 3 days or 
the counselor might just want to just talk about it casually in 
the hall because they know that they might not be able to call 
that student in because their caseload is so high.
    But when you have caseloads low, these school counselors 
really can create those trusting wonderful relationships with 
students where they, and I would like to say they would more 
than likely come to that school counselor to say, ``Hey. I need 
to tell you something confidentially. This is what we are 
experiencing. This is what we see.'' So that school counselor 
can then intervene.
    Mr. Heck. Mr. Canady, I know you are primarily on building 
a rapport between the resource officer and the students; that 
certainly is a proactive approach, but anything else that you 
would look at that would try to help prevent these incidents 
rather than trying to respond to them?
    Mr. Canady. The relationship issue is so huge. You know, I 
think it is the most important one. You can get more 
information from a student when you have a positive 
relationship with them than you can in trying to interrogate 
someone. There is no question about that. So the relationship 
is huge, but also, I would add to that, relationship with 
parents. When the parents trust the SRO or the school counselor 
or school administrator, they are more willing to share 
information, which can be very helpful.
    Mr. Heck. Great. Thank you.
    Thank you, Mr. Chair. I yield back.
    Mr. Bond. May I address that----
    Chairman Kline. I thank the gentleman. We will get back to 
that, I am sure.
    Mr. Andrews, you are recognized.
    Mr. Andrews. Thank you Mr. Chairman. I thank the witnesses 
for very, very good testimony. I want to ask your position on 
something. What is your opinion of authorizing personnel other 
than police officers to bear arms in schools? Mr. Bond, what do 
you think?
    Mr. Bond. I think overall, it would be detrimental.
    Mr. Andrews. Okay. I just want to be brief.--Mr. Canady, 
what do you think?
    Mr. Canady. Our association took a strong stance on that 
from the beginning and that was we would not favor the 
wholesale arming of teachers. We realize there are unique 
situations.
    Mr. Andrews. Mr. Pompei?
    Mr. Pompei. Absolutely disagree with that.
    Mr. Andrews. Mr. Bontrager?
    Mr. Bontrager. I am a security expert, I am not an expert 
on gun control and what we focus on is how to, if the schools 
decide that that is where they want to go, how do we make it as 
safe as possible.
    Mr. Andrews. I understand.
    Mr. Osher?
    Mr. Osher. One of my expertise is in implicit bias from 
social psychology. It is a very dangerous, risky, proposition.
    Mr. Andrews. Mr. Ellis?
    Mr. Ellis. I would agree with that. I think it is a very 
risky proposition, and I would not be in favor of it.
    Mr. Andrews. Mr. Pompei, the National Association of School 
Counselors has a recommended ratio of 250 students to one 
counselor. What is your opinion about that ratio? Do you think 
it is accurate? Good?
    Mr. Pompei. I mean, to be honest, I would love it to be 
even lower than that because of the kind of work I know I could 
do, but I can tell you, speaking from experience in California 
where our ratio is above 1,000:1 and I can tell you the type of 
work that we know as school counselors we need to be doing, is 
not being done and it is not because there is not a desire to 
have it done. So to do the preventative work that needs to be 
done----
    Mr. Andrews. Thank you.
    Mr. Osher, your data show apparently that two of the really 
effective strategies for reducing school violence are freeing 
up guidance counselors and psychologists. They have more time 
to counsel students and develop an early warning intervention 
system which I think strongly implies a lot of counseling 
interaction with students.
    The national ratio of students to counselors is 470:1, 
which means even to come down to the present ratio, we would 
really have to double the number of school counselors. Would 
you favor a federal program to help finance such a result?
    Mr. Osher. I think that such a program is consistent with 
evidence that I have seen. Let me just add one thing that is 
also important that in many jurisdictions that I have been in, 
school counselors spend their time doing schedules and 
readmitting students who have been suspended. What you want to 
do is free them up, just like you would want to free school 
psychologists up to use the skills they have so that they can 
build the relationships and participate----
    Mr. Andrews. Apropos that point, the Bill and Linda Gates 
Foundation commissioned a study a while back. They asked 
students about their perceptions of their counselors. And 60 
percent of the students gave their counselors either a fair or 
poor grade, 35 percent of the students gave them a poor grade, 
the lowest one, 48 percent of the students said that they felt 
that they were quote--``A face in the crowd,'' as opposed to 
really understanding their counselor had some sense of who they 
were.
    Now I attribute that frankly to the overwhelming workload 
the counselors have both in terms of the number of students 
they have and then the additional workload besides counseling. 
Do you think that there should be some guidelines or 
suggestions or rules that govern what duties school districts 
can assign to counselors?
    I mean, I am very sensitive to not micromanaging what our 
schools do, and I am sure Mr. Bond would be well aware of why 
that is, but it does strike me that counselors are utility 
infielders. They are doing administrative scheduling work. Some 
of them are even involved in transportation work in some 
districts. Do you think that we should impose some requirements 
that they stick to the core mission? What do you think, Mr. 
Osher?
    Mr. Osher. I think when everyone is making policy, one has 
to try to structure it so that it is utilized well, and whether 
it is through guidelines, whether it is through technical 
assistance and support, I think it is important for people to 
know that this is an important investment and it needs to be 
used well.
    Mr. Andrews. Mr. Pompei, do you want to comment on that? 
Then my time is up.
    Mr. Pompei. Yes, the American School Counselor Association 
naturally has a national model that highlights the type of 
items that school counselors should be focusing on their day 
even to the point of percentage of time they should be 
focusing. It also will list those for example for 
administrators and school district directors to highlight what 
school counselors should not be focusing on.
    Mr. Andrews. I think it is really inspiring the way you 
have overcome your very difficult experience to help other 
young people. We appreciate that very much.
    Mr. Pompei. Thank you.
    Chairman Kline. Thank the gentleman.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    Thank you to the panel for being here on this important 
issue and challenging situation.
    Mr. Canady, you acted for, as I understand it, over a 
decade as a supervisor for your local school services division 
and now you serve in a national capacity. I guess the first 
question I have is how have you witnessed the role of law 
enforcement change in dealing with school safety over the 
years?
    Mr. Canady. Well, one of the most important ways that I 
have witnessed the change is the SRO actually becoming a part 
of the safety team and a part of the plan. SROs who again are 
well-trained and understand the job get very engaged in the 
plan. They get very engaged in helping the school to practice 
the plan, different elements of it. So those are some of the 
changes that I think are significant.
    Mr. Walberg. I represent school districts like small rural 
Hillsdale County and others, larger like Lansing, Jackson, 
Monroe County. Is there a different role that must be taken at 
the local level between communities?
    Mr. Canady. As far as between the law enforcement agencies 
in the community?
    Mr. Walberg. Law enforcement agencies, the whole issue of 
security, based upon the size situation of the community.
    Mr. Canady. Yes, I think one of the things that definitely 
needs to happen is more focus on training. Of course, we train 
police officers to work in schools, but our training is also 
available to school administrators. So in those community 
environments, the teams need to be training together. School 
administration, law enforcement, fire department, they need to 
be working together in a safety team.
    Mr. Walberg. The principles are the same, but there are 
unique situations, right? One size doesn't fit all?
    Mr. Canady. I would say that one size does not fit all. 
There are very unique situations out there and yes.
    Mr. Walberg. Thank you.
    Mr. Bond, in your testimony, you state, and I quote--``That 
the most effective way to prevent acts of violence targeted at 
schools is by building trusting relationships with students and 
others in the community so that threats come to light and can 
be investigated as appropriate. The solution is a matter of 
school culture. It is a matter of community engagement. It is a 
matter of public health''--end quote. Why doesn't that 
statement include any mention of federal involvement?
    Mr. Bond. Because what I was addressing here is how we 
prevent school violence at the community. Of course, the 
federal government has oversight over all of those, but the 
federal government has oversight, they have the funding 
capacity over all of that I did mention.
    Mr. Walberg. Okay.
    Mr. Bontrager, in your testimony, you talked about your 
work to secure local schools over the years and can you give us 
a sense of some of the typical--if there is any such thing as 
typical--but the typical security items that schools need to 
protect students?
    Mr. Bontrager. You are absolutely right. There is no 
typical solution and it starts with a core solution that is 
normally around what we would call mechanical hardware. There 
is lots of openings, so there is lots of locks and access 
points and one of the most important parts is the control of 
the keys; who has the ability to gain access.
    So having control of a keying system so that you know who 
can get into what portion of what room, what portion of the 
building, et cetera, and then it goes out from there. If there 
is a desire to add access control, electronic access control 
and video, but it starts at the core with mechanical. It goes 
to video and alarms and staff protection and notification from 
there.
    Mr. Walberg. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    To follow up on Dr. Heck's observations, a forensic 
psychologist at the University of Virginia, Dewey Cornell says 
in his presentations that if your school shooting prevention 
program begins when the shooter is at the door, it is too late. 
With that in mind, Mr. Osher, your testimony mentions that 
promotion and prevention are more effective. What do you mean 
by promotion and prevention?
    Mr. Osher. Sure. When I think about promotion--when I talk 
about promotion, I mean building assets. Assets can be through 
social emotional learning that develops my ability to stop and 
think before I do something; a competency. It can be my 
relationships with the counselor like Mr. Pompei.
    Prevention is when we do things to try to prevent bad 
things from happening. When I think about positive behavioral 
interventions and supports that stop teachers from reacting to 
students or stop security officers from being negative, that is 
a preventive behavior.
    We need to do both of them, but we want both people to know 
not to jump over a bridge and we also at the same time want to 
have railings that would prevent people from jumping over a 
bridge.
    Mr. Scott. I think you mentioned that the prevention and 
promotion initiatives have to be comprehensive.
    Mr. Osher. Yes.
    Mr. Scott. What does that mean?
    Mr. Osher. Often times schools and districts try to do one 
thing and they get poor results. Comprehensive is, I think, has 
at least two components. One component is thinking about tiered 
interventions, what you do for everybody, what you do for some 
people who are at a more elevated level of need whether it is 
academically or behaviorally, and what you do for people who 
have greater needs.
    But comprehensive is also connecting the dots and often 
what happens in schools and districts and in public policy is 
that the dots are not connected. So it is thinking about the 
connections between what we do in security and what we do to 
make--help students be engaged. Those things are not 
disconnected events.
    When I have a metal detector outside of the school and 
people are waiting on line to get in and they end up getting to 
class late, and then a teacher may not let them in or push them 
in the hall because of that or the classroom dynamic is 
disrupted, those things are connected and we have to have plans 
that address all of them.
    Mr. Scott. Thank you. You also make a point that prevention 
and promotion are less counterproductive and have fewer harmful 
side effects than suppression and punishment. What kind of 
counterproductive or harmful side effects were you talking 
about?
    Mr. Osher. One big harmful side effect is the 
disproportionate exclusion from education for poor kids and 
children of colors and children with emotional and behavioral 
disabilities. It is the issues that the Council and state 
governments report that came out of Texas last year raised that 
this is a major issue.
    The data are consistent across the country regarding 
profound disparities and what we also know, say from a place 
like New York where I am working right now, is consistently--
what is happening is students doing stupid things and end up 
being criminalized, and the first step may be a summons, but 
the second step that that same person does who may be more 
likely to be profiled or because they have an emotional problem 
to be picked up is that they have a summons and the next thing 
you know you have a bench warrant and judges and district 
attorneys in New York City have been talking about their 
concern with that part of the pipeline to prison.
    Mr. Scott. Are you talking about zero tolerance policies?
    Mr. Osher. The data on the way in which zero-tolerance 
policies are implemented are highly problematic. And again, 
these are functioned to deny opportunities to learn to the 
students who are removed, but we also know from research that 
they had impacts on the other students including their 
willingness to trust adults.
    Mr. Scott. What does your research show about police in 
schools, the SRO----
    Mr. Osher. I can't hear you----
    Mr. Scott. What does your research show about SROs? The 
police in the schools?
    Mr. Osher. There is little good research, but I can tell 
you from TA centers that I have worked that on the one hand we 
have seen good SROs and their work is consistent with the 
Denver plan that you have heard, that people may have heard 
about.
    On the other hand, I think the issue is that with scarce 
resources, there are opportunity costs and when I was listening 
before to Mr. Pompei I think about a school in Chicago that 
replaced all security personnel with a counselor for each grade 
and as well as a counselor for the first year of college, which 
along with focusing on people's commitment to each other, 
reduced fully the amount of violence in the school and that has 
persisted for now 5 years.
    Thinking I might get a question like this, I checked with 
Chicago security yesterday to get the answer and so there is an 
opportunity cost even if something is good.
    Chairman Kline. Thank you. The gentleman's time has 
expired.
    Dr. Roe?
    Mr. Roe. I thank the chairman for yielding.
    And I want to thank the panel. I have certainly learned a 
lot here today and I know when I was in school and perhaps any 
of you can take this question. I don't ever recall a school 
shooting. I grew up on a farm and I grew up hunting. I grew up 
around guns.
    As soon as I was big enough, my family showed me how to 
hunt and shoot and I look back and looked at the data. There 
have been 137 school shootings since 1980--and I didn't go back 
further than that--with 297 deaths, fatalities that may not 
have included Sandy Hook. 2,000 kids each year die in 
automobile accidents, children do. It is a far bigger problem, 
but what I have--car wrecks are.
    Someone, I have forgotten who it is on the panel said that 
schools are safe places and for the most part, they really are 
and to Mr. Scott's comment, I want to brag on the SRO program. 
In my county next to me, Sullivan County Tennessee, Kingsport 
is the major city in that county and its resource officer 
prevented--a man came into school with a gun and she stood 
there and faced this man down. One of the bravest women I have 
ever met in my life, and I don't know how many lives she saved, 
but I think the school resource officer program is great.
    I also agree that the counseling, as Mr. Andrews said, is 
woefully underdone. I remember when I got out of high school I 
went to the counselor, the school counselor one time in 4 
years. That was to tell me what I was supposed to do with the 
rest of my life, and just like you said, I sort of blew that 
off and went on.
    So it is basically worthless. I hate to say that about Ms. 
Marable but it was basically worthless, and I just wonder on 
the--on the SROs, what we are doing our community, in my 
district is we are raising the resources now locally, put an 
SRO in each school in our system.
    I think that is a good thing to do, but I think the other 
thing I learned today is we need to go a step further and make 
sure that we have got the prevention and as you all point out 
the planning and the training and the reevaluation of things on 
a regular basis. It is not like you do your will once when you 
are 25, put it on the shelf, and never get it out again until 
you are in the graveyard.
    I think that is a great point you made that these things 
change each day, and Mr. Canady, I would like for you to tell 
me about in your association, what number of schools across the 
country are covered by SROs? Do you know how many? The number 
or anything?
    Mr. Canady. I am sorry, I couldn't hear the last part of 
your question.
    Mr. Roe. In other words, how many schools have an SRO, a 
resource officer there?
    Mr. Canady. The best estimates we been able to come up with 
are around 10 percent. We think it is somewhere around 10 
percent. We don't see a lot beyond that.
    Mr. Roe. So it is a very low number then.
    Mr. Canady. Yes, sir.
    Mr. Roe. It is, and I agree with you. What I have seen when 
I--and I have got so tired of adults here in the last election 
that a week before the election, I went to seven schools and 
visited them and all of them had a resource officer and they--
at least the students I saw around--he was part of the school 
system or she.
    They were very much a part of--I mean, a lot of the kids, 
maybe they had gotten to know these folks and everything, but 
they seemed to interact. I was amazed at how well and how much 
trust they had and I think that is--goes for both Mr. Pompei, 
you and Mr. Canady, the trust that the students gain to when 
they get to know if you take the time to get out and do that 
and I think they will share a lot of things with the resource 
officer, with the school counselor if they are available and it 
sounds like they are not available if only 10 percent of 
schools have them and if in your case in California where one 
in 1000, that is, that is almost as well not have one if you 
have that few. Any comment?
    Mr. Canady. Well, it certainly, you know, we are not 
calling for more police in schools. What we are asking for are 
the ones that go in the schools that they are properly trained. 
However, I certainly know the benefits of an SRO. I have seen 
it firsthand for several years, and I can certainly speak to 
that and I believe any school could benefit from one again if 
they are properly selected properly trained.
    Mr. Roe. Mr. Bond?
    Mr. Bond. Is Campbell County Tennessee in your district, 
Mr. Roe?
    Mr. Roe. No sir, just out of it.
    Mr. Bond. Just out of your district. In 2005 in Campbell 
County, an assistant principal was killed. And that school did 
not have an SRO and they heard a kid had a gun on campus and 
two assistant principals and the principal tried to disarm him. 
He shot all three of them in 3 seconds. One died, one has a 
bullet an inch behind his heart, and the principal had his 
bladder exploded. Had they had an SRO, they would have been 
able to search that young man without that happening.
    Mr. Roe. I think the decision has been made in our 
community and I am ready to yield back is that we are going to 
have SROs, and I certainly will take the other things back from 
this panel.
    Thank you, Mr. Chairman.
    Chairman Kline. Gentleman's time is expired.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman, and I truly thank 
you for having this hearing.
    I am hopeful that we are going to have more hearings on 
school safety because the testimony that we have heard today, 
which I think is excellent and I think each person here has put 
out some good points. But the truth of the matter is, we don't 
know, whether most schools can even have an SRO; we don't know 
if they can afford it.
    Counselors, we know that we don't have enough counselors. 
My former life was a nurse. I know darn well we don't have 
enough nurses in schools, and we know, especially in the grade 
schools and the middle schools that is where most kids that are 
troubled are first referred to services. The nurse brings them 
to the counselor or to someone that would need help.
    But, you know, there is a lot of people here--certainly 
here in this committee--know that I am not a stranger to the 
debate on gun violence and how can we prevent it. I certainly 
offered the last major piece of legislation on this issue that 
had to do with Virginia Tech, but I have to say that I agree 
with Mr. Ellis that what happened in Connecticut was a 
terrible, terrible tragedy, but I don't want my schools to 
start to panic because the majority of my schools they are the 
safest places some of these young people go to especially in 
certain neighborhoods and depending on the community that they 
are living from.
    We certainly know that a lot of young people are killed 
going to school and coming out of school or hanging out at the 
school. So I think that, you know, while this committee can do 
some work to make schools safer from gun violence, you know, my 
personal belief is that we need to do something in tandem with 
trying to reduce gun violence outside the school--and that has 
to do with gun violence prevention--this is something that 
everybody should be thinking about.
    Mr. Palmer, you know, couple years ago, I was the 
chairwoman here on Healthy Families and Communities 
Subcommittee and I had a hearing on cyber bullying, and even to 
this day, we do not have enough information in our schools to 
talk about cyber bullying.
    We have worked with many, many organizations, Girl Scouts 
of America, who found out their young ladies some of them the 
worst of those that were actually, we used to call it ``picking 
on a kid''. It is not that way anymore and something that goes 
on Facebook is there forever, and we need to do more on that 
and I think that is important and that is something that can be 
done within the school.
    So I understand what you went through and I really 
appreciate that you took that and made it your career to help 
others and I think that is extremely important and 
unfortunately some of these sad things that happen in our lives 
makes us activists in one way or the other.
    But Mr. Canady, I was interested in what you were saying. 
You mentioned that the school resource officers should always 
operate with a memorandum of understanding between law 
enforcement and the school district. Is this always the case?
    Mr. Canady. I am sorry, I couldn't hear the last part.
    Mrs. McCarthy. In your testimony, when you were speaking, 
you had said that the school and the SROs should actually have 
a memorandum of understanding on how to work together.
    Mr. Canady. Yes----
    Mrs. McCarthy. Is this always the case?
    Mr. Canady. I understand the question now. It is not always 
the case, unfortunately. It should be. That is the foundation 
for a program to be successful. Without that, it is very 
difficult for it to succeed.
    So the MOU is one of the things we have been teaching for 
23 years now, and I see that as to some degree, not that I know 
the details, but it appears to me that is what is happening in 
Denver is that the city and school district are coming together 
and putting an MOU in place and agreeing to work together.
    Mrs. McCarthy. And when we talk about possibly if it is 
only 10 percent of having school resources, SROs in the 
schools, obviously what we are going through here, whether the 
money comes from Washington, goes down to the state from the 
state to our schools, we are not going to have, never have the 
resources that are needed unfortunately.
    But I also believe very, very strongly as we, many of us 
have been working on reducing gun violence, a strong component 
of that is really to be able to have mental health providers in 
schools, whether they are psychologist, psychiatrists. I don't 
know too many schools that have a psychiatrist, inside the 
school, talk to the teachers.
    The teachers can pick out these young people that have 
problems right away, but then how do we get the parents to 
react to that. So these are a lot of things that I happen to 
think this committee should really be looking into because if 
we are going to keep our schools as safe as possible, I think 
that we really, really have to have a comprehensive program.
    Thank you.
    Chairman Kline. The gentlelady's time has expired. We are 
looking at votes probably in the next 20 to 25 minutes. So 
after discussion with the ranking member, I am going to reduce 
members' time to 3 minutes instead of 5 minutes so pay 
attention.
    Mr. Rokita, you are recognized.
    Mr. Rokita. Thank you, Mr. Chair.
    I also want to thank all of you for your testimonies. It 
has been very educational for me. I happen to be the 
subcommittee chair for K-12 here on this committee and I share 
Ranking Member McCarthy's comments as well on everything she 
said on these issues.
    So let me quickly--I also happen to be a member of the 
budget committee here in the House and so my mind especially 
this time of year turns to that type of work.
    For Mr. Bond, maybe Mr. Ellis as well and anyone else who 
wants to respond, how much does it cost local school districts 
to develop and implement a school safety plan? Especially 
noting that it is a living document.
    Mr. Bond. School safety plan is just part of what goes into 
being the administrator and professional development. A day of 
professional development, 1 day of professional development 
costs one, two-hundredths of the school's budget.
    Mr. Rokita. Okay.
    Mr. Bond. So----
    Mr. Rokita. Mr. Ellis, anything to add to that?
    I don't mean to cut you off, but----
    Mr. Ellis. I think the simple answer is it depends. It 
depends on the expertise----
    Mr. Rokita. Are you a lawyer? [Laughter.]
    Mr. Ellis. No, I am not. I think--if I could finish--it 
depends on the expertise available in the school system. It 
depends on the expertise available in the local community, for 
instance through the Office of Emergency Management and 
locality, what kind of resources can come to bare to assist the 
school to develop those kinds of plans.
    Mr. Rokita. Do any of you know if there is any specific 
federal program or funding that goes to helping plan these or 
create these plans?
    Mr. Ellis. There used to----
    Mr. Bond. Title----
    Mr. Rokita. Mr. Bond?
    Mr. Bond. Title IV that used to exist, Title IV all went to 
school safety in the----
    Mr. Rokita. No, but for the planning? Do you have a 
flexibility to use that money to create your plan and implement 
it?
    Mr. Bond. Title IV allowed you to develop the plan, have 
professional development on it, bring in expertise, yes, Title 
IV does that.
    Mr. Ellis. And there used to be grants----
    Mr. Rokita. Mr. Ellis?
    Mr. Ellis [continuing]. Through the Department of 
Education's Office of Safe and Drug Free Schools, the REMS 
Grants, the Readiness and Emergency Management in Schools. It 
is my understanding those do not exist anymore since 2011.
    Mr. Rokita. Okay.
    Mr. Bontrager, real quick, while I have you here, thank you 
for your presence in Indiana, too. I played hockey just down 
the street from where you guys have 1500 or so employees.
    Your testimony talks about how educators have a lot on 
their plates trying to educate students and are now expected to 
be--people trying to educate students are now expected to be an 
expert on school security. Can you talk a little bit more about 
how private companies can help to defray some of these costs 
and so forth?
    And when you put the hardware in, do you kind of just turn 
it over or do you help the training as well?
    Mr. Bontrager. So two things. I think a lot of the 
solutions, a lot of the products exist in the market and the 
schools need to be made aware of them as opposed to trying to 
figure out what can we do, we need to find a way to pair them 
with people that know what the opportunities, what the 
solutions are that can be implemented at those schools.
    And no, the answer to your second question is we provide 
training specifically for people as simple as locking systems 
to wireless locks. We bring them to our facilities to train the 
employees in the school as to how they work so that they can 
train others and keep the program alive and keep the integrity 
of the program as the years go on.
    Mr. Rokita. Thank you, all. My time is expired.
    Chairman Kline. The gentleman's time has expired.
    Mr. Courtney? And there will be a little bit of latitude 
here, understanding your connection.
    Mr. Courtney. Thank you, Mr. Chairman.
    And again I just wanted to make a note that as someone who 
represents a district that is about a 50-minute drive from 
Newtown, I really want to thank the chairman for holding this 
hearing.
    This is the first hearing in the House side since the Sandy 
Hook incident took place and I just want you to know that it 
has not gone unnoticed and hopefully, some of our colleagues in 
other areas of jurisdiction in the house are going to take the 
incredible outpouring of reaction in response to Newtown as 
seriously as you did. And again, with that, I just, again, want 
to reiterate my thanks.
    Thank you to the panel. I am sort of an all-of-the-above 
guy in terms of a lot of the ideas that are being presented 
here today. You know, in particular, the teamwork between 
school resource officers, school health base centers, school 
counselors is something I have witnessed repeatedly over the 
last month and a half or so talking to school districts in 
Connecticut and they are a team when they are working the right 
way.
    And also what I heard is that one of the reasons why it is 
not like the good old days is that kids are coming to school 
with severe diagnosed conditions of mental health illness at 
shockingly young ages and the one item that I heard again, 
repeatedly, from school counselors and educators is the fact 
that again, even when you have got a fairly robust system of 
counselors and school-based health centers, the fact is, is 
that sometimes you need to refer out into the community for 
pediatric psychiatrists and adolescent psychiatrists.
    And in a state with Yale Medical School and UConn Health 
Center turning out physicians, this is not an area of 
profession where frankly we don't have near enough bodies out 
there to deal. I mean, the waiting time for even emergency 
situations is just, it is really just unacceptable.
    And I just want to see, Mr. Pompei if you can sort of 
confirm that experience as well; the need to refer out, which 
is required sometimes, is really very difficult.
    Mr. Pompei. Absolutely. School counselors, school nurses, 
we very much are aware of who is in the community. So part of 
our job is that middle person, that collaborator with the 
communities. So we are the person the administrator will come 
to if they find out that there is a need because they know the 
school counselor will have access in their file drawer right, 
you know, readily available to make sure that they can make 
those recommendations.
    We work very, very closely with the community-based mental 
health professionals for long-term care and then we collaborate 
with them so once they are getting that long-term care, we can 
provide the changes that are needed to make a positive 
transition for that student to come back to school, making sure 
we are working with the teachers to say hey, these are triggers 
for the student and making sure that they are getting the 
training and then meeting with the student as follow up for the 
rest of the school day.
    Mr. Courtney. So again, as we try to consider what to do in 
response to the situation, you know, I think it is important 
for us to know that there is a loan forgiveness program for 
pediatric and adolescent psychiatry, which through the National 
Health Service Corps, which is going to expire this year, and 
to me, this is an issue which our committee should look at.
    It deals with the needs of young people and it deals with 
obviously a workforce gap that is out there and we can fix that 
by re-extending that.
    And I would just lastly add, Mr. Bontrager, your point 
about trying to find a place for people to sort of get best 
practices, the REMS technical assistance program at the U.S. 
Department of Education actually still does exist. They do do 
webinars. They do have online information, but frankly, we 
should also try and follow that up with some more resources, 
and I don't know if you want to comment on that, and I will be 
done.
    Mr. Bontrager. Yes, I know it is the TA does exist, but the 
grants are no longer being offered for localities.
    Mr. Courtney. Right.
    Mr. Osher. Could I just then say that the Department of 
Education has brought the REMS TA Center along with the 
National Center on Safe and Supportive Learning Environments 
that I lead together to make sure that we coordinate our 
activities in response to these issues and to try to make those 
connections.
    Chairman Kline. Thank the gentleman.
    Mr. Guthrie?
    Mr. Guthrie. Thank you.
    Thank you, Mr. Bond, for coming up from home. I appreciate 
you being here and I know what happened in your school, the 
tragedy was there, as the way you reacted, your school, the 
Paducah community is something that--I know it still 
reverberates there and we appreciate you coming here to share 
your experiences because hopefully there are very few people 
that have the experiences you have and you can share those to 
other schools.
    But my question I guess since in 1998, the legislature 
passed in Kentucky the school safety at Eastern Kentucky 
University bullying and all the things that went forward. And 
since 1997, you have now in school safety, what now that you 
knew then, what have you learned or what do you think is 
available to professional development, what you would have 
learned, what your teachers learn--I know this is very 
speculative--but if you knew then, what you know now, do you 
think Mr. Carneal would have been prevented from doing what--
other than--hopefully a kid now will say, ``I saw a gun at 
school.'' Hopefully that--that would hopefully be evident, but 
what other things? Because I understand he was a mentally ill 
and troubled student in a lot of ways.
    Mr. Bond. I think what I have learned, Mr. Guthrie, is that 
communication cannot be replaced with anything; money, any 
commitment, communication with the people involved in the 
school, the trusting each other, understanding that we are all 
responsible for each other cannot be replaced by locks, police 
officers, cameras. That is the ultimate thing that we have to 
develop. We all play a part of that; SROs, counselors, 
principals, school nurses. We are all in this together.
    Mr. Guthrie. When you see somebody with his behavior now 
today, there are--I mean, he was a loner, understanding a lot 
of the----
    Mr. Bond. No, sir. Mr. Carneal was an A/B student. He was 
in the band.
    Mr. Guthrie. I knew he did well, but I----
    Mr. Bond. His father was an attorney. His sister was a 
valedictorian.
    Mr. Guthrie. Yes, I have met her.
    Mr. Bond. He wasn't a loner. He had never had a 
disciplinary write up in his life.
    Mr. Guthrie. It just----
    Mr. Bond. He had never been in the principal's office for 
being in trouble until he brought all those guns and killed 
those people.
    Mr. Guthrie. Because that would be difficult to spot 
somebody like that. That is what the concern is, I guess. We 
appreciate you Mr. Pompei went to the counseling--how you----
    Mr. Pompei. Well, I hear from my colleagues in like 
sometimes when school counselors will go into a lesson in a 
classroom and I have been in a classroom where I have noticed a 
behavior that in our--you know, training that school counselors 
get when we get credentials, that sometimes we notice things 
that teachers or an administrator that never had that training 
can spot.
    And then that is when we will start to work with that 
student so that we can deal with and try to, you know, probe 
and find out if something is going on there. I am not saying 
that a school counselor would have been able to identify that, 
but it is very common for a school counselor to spot things 
because of the training we receive that other educators at the 
school system might not. So----
    Mr. Guthrie. Thank you.
    I yield back.
    Chairman Kline. Gentleman's time has expired.
    Ms. Wilson?
    Ms. Wilson. Thank you, Mr. Chair.
    I think that in every tragic incident we have within school 
violence we always end up saying someone should have done 
something or someone could have done something to prevent this 
and I think that there is not a one-size-fits-all for all 
schools.
    I represent a school district, two school districts; one 
that has a full police force, the other has just a few SROs, 
but that is the difference in the school districts. But I think 
one thing that should be available to all schools is enough 
counselors, enough social workers, and mentors for the 
children. That is all of them. Whether they have SROs or 
whatever else they have, and I don't think it is so much for 
the counselor to detect who needs help.
    The way that the funding is now for counselors, there are 
so few, so children who have problems relating to their 
parents, relating to their peers, they don't have anyone that 
they really trust in the school to speak with because there are 
so few counselors and they are always busy. They are planning 
for college and testing, et cetera.
    So the one thing I think we need to do is expand the pool 
of school counselors, and social workers who can make home 
visits after the school counselor gives them recommendations 
and also mentors from the community because a lot of times it 
is just a matter of miscommunication. ``I don't know who I 
could have gone to for help.''
    And I have had the opportunity to talk to so many children 
who are in prison, in jail, with just one person being 
available to help them through a bad day, to help them through 
anger, to help them through bullying, to help them through 
mommy and daddy getting a divorce, or mommy getting beat-up the 
night before, or mommy is a crack addict, whatever.
    But to me, I would like to find out from the panel: how do 
you feel about increasing the numbers of counselors? I heard 
someone say that one school had a counselor for every grade 
level. What a difference it would make for children in schools. 
And I would like to get your reaction. I am a former school 
principal and----
    Chairman Kline. The gentlelady's time has expired.
    I think it is an excellent question. We would like to get 
that for the record if we could from the witnesses. We can get 
the response.
    Ms. Wilson. Thank you.
    Chairman Kline. Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Chairman Kline and 
Ranking Member Miller, for having this important hearing.
    And thank you to the panel for your excellent testimony. I 
have two questions, and in the interest of time, I will ask 
them both together and then ask for your response.
    First, thank you so much for your discussion about 
prevention. It is so important. And I would like you to 
perhaps, Mr. Bond and Mr. Pompei, talk briefly about that 
barriers, other than resources, which we understand, and the 
ratio that is too high, what are the barriers? Are there 
student privacy barriers or other barriers to prevention?
    My second question has to do with a different kind of 
school safety and Mr. Ellis, you mentioned natural disasters as 
a school safety issue. Oregon, my state, is due for a major 
earthquake along the Cascadia fault and there are schools that 
are along that coast there that are in the fault zone and will 
likely result--there will be a tsunami there. And so we have 
dangers of collapsing buildings and infrastructure and because 
we are so close to the fault, we don't have very much response 
time.
    So we take this very seriously, and I wonder if anyone has 
experience in planning for this type of natural disaster.
    So first the barriers to mental health and then the 
emergency preparedness aspect. Thank you.
    Mr. Bond. I keep coming back to the same thing, 
communication, but schools haven't adapted to modern 
communication that kids use. In the old days, we could put a 
box out and say drop a note in. Kids don't drop notes. We could 
have hotlines. Kids don't use telephones.
    We have to have mechanisms in place where kids can send 
text messages with their concern, e-mail messages with their 
concern, but setting the system up is easy part, but then we 
have to have someone like a counselor that has time to monitor 
those and follow up because if you ask kids to give you 
information and you don't follow up on that information, you 
will never get any information from that child again.
    You have to follow up with the child's concern, and we 
don't have those resources in place to follow up with those 
children's concerns.
    Ms. Bonamici. Thank you.
    Mr. Pompei?
    Mr. Pompei. And the number one barrier, I know that you 
mentioned--other than school--the student to school counselor 
ratio--that would be the number one barrier--but as far as 
school climate as a whole and the well-being of the child as a 
whole, I would say the number one--me speaking as a school 
counselor--would be the lack of professional development that 
is connected to what does research say, what are the research-
proven ways that create a safe, nurturing, inclusive, welcoming 
school climate for all kids.
    Very much the professional development is connected to 
helping the students learn algebra, helping the students learn 
English, helping teaching vocabulary, and it has completely 
avoided the professional development on that topic even though 
the research has the connection; when they feel safe and 
connected, they are more likely to learn.
    Ms. Bonamici. Thank you.
    And I see that my time has expired, so perhaps I can get 
some response after the hearing on the record about the 
preparing for natural disasters and that safety aspect.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentlelady, her time is expired, 
and we would appreciate response if you have--you are poised to 
answer that question about natural response, we would like to 
get that for the record.
    I have held off my questions until the end here trying to 
make sure that we got questions in before we went to vote, and 
I am not going to ask a question now because it is I am sure a 
lengthy answer, but I just want to make this observation. 
Listening to the discussion here today, how many times your 
responses, almost everybody, has talked about the need to have 
a trusted adult and to have communications between the students 
and those trusted adults and communications between students 
and students.
    And it seems to me that is an area where schools will be 
well-advised to make sure that their staff beyond just the 
counselors--and I very much appreciate that work--and beyond 
just the officers in the school, but for there to be an 
education training awareness program so that teachers and 
administrators are seen as trusted adults and the students can 
talk to them.
    I was just struck by again and again as we went back and 
forth how that theme continued to play out.
    Let me yield to Mr. Miller for any closing remarks he might 
have.
    Mr. Miller. Mr. Chairman, again, thank you very much for 
the hearing. I think you heard from our members how important 
they thought this was.
    And thank you again to the panel. I assume we will have 
additional hearings on this. Thank you.
    Chairman Kline. Thank the gentleman.
    And again, I want to thank the witnesses. Truly an 
excellent panel. Marvelous resource. Of course we picked you, 
so I guess we get some credit here, but truly marvelous and 
thank you very much for your testimony and your responsiveness.
    And with that the committee stands adjourned.
    [Additional submissions for the record from Mr. Miller 
follow:]

 Prepared Statement of the Council for Exceptional Children (CEC) and 
       the Council for Children with Behavioral Disorders (CCBD)

    The Council for Exceptional Children (CEC) and the Council for 
Children with Behavioral Disorders (CCBD), a division of CEC, are 
pleased to offer testimony for the House Education and the Workforce 
hearing, Protecting Students and Teachers: A Discussion on School 
Safety.
    The tragic events that took place in Newtown, Connecticut in 
December, 2012 whereby 26 young students and educators were killed by 
gunfire, must serve as motivation for significant changes at the 
federal, state and local levels to address violence in our nation's 
schools and communities. While this heartbreaking event continues to 
capture the national spotlight, we know that, unfortunately, far too 
many of our students experience violence on a regular basis in their 
schools and neighborhoods. The country is looking to the Congress and 
the Administration for leadership to address the issue of safety in our 
schools and communities.
    Members of CEC and CCBD serve on the frontline, working in schools 
with children and youth with disabilities and other at-risk students as 
special education teachers, behavioral specialists, school 
administrators, or higher education faculty who are preparing the next 
generation of educators. As a result, CEC/CCBD members are 
professionally trained to understand the complexities of children and 
youth with disabilities, including the 371,600 students\1\ with 
diagnosed emotional and behavioral disorders. Through this work, it has 
become clear that Congress should pursue the following policy 
recommendations:
---------------------------------------------------------------------------
    \1\ ``Number of Students ages 6 through 21 served under IDEA, Part 
B, by disability and state.'' U.S. Department of Education, Individuals 
with Disabilities Education Act Data. Data Accountability Center, n.d. 
Web. 26 Feb 2013. http://www.ideadata.org/arc--toc13.asp
---------------------------------------------------------------------------
    1. School safety policy proposals should use an interdisciplinary 
approach that reinforces a partnership between education, juvenile 
justice, mental health, social welfare, and community engagement 
systems;
    2. School safety policy proposals should require implementation of 
evidence based practices that address prevention and response while 
ameliorating the stigma associated with mental illness;
    3. School safety policy proposals should focus on the impact of 
mental health challenges on students' social, educational, and 
employment outcomes; and
    4. School safety policy proposals should confront and remedy the 
national shortage of special educators and specialized instructional 
support personnel who are trained to address the complex needs of 
students with mental health difficulties.
    Below, we provide a rationale for the above recommendations.
    First, it is vital that policy proposals--whether at the federal, 
state, or local level--use an approach that reinforces 
interdisciplinary partnerships between education, juvenile justice, 
mental health, social welfare, an, including community engagement 
systems. This approach is necessary because ``school violence is not a 
single problem amenable to a simple solution but, rather, involves a 
variety of problems and challenges.'' \2\ While it is tempting to 
address single issues--such as installing metal detectors at entry 
points in school buildings--research has demonstrated that it is 
necessary to address school safety using a comprehensive, coordinated 
approach.
---------------------------------------------------------------------------
    \2\ Cornell, Dewey G., and Matthew J. Mayer. ``Why Do School Order 
and Safety Matter?'' Educational Researcher. 39.1 (2010): 7-15. Print.
---------------------------------------------------------------------------
    Second, in the wake of national tragedies, it has been common to 
see implementation of policies which represent a knee-jerk response 
rather than those rooted in evidence and research. It is critical that 
we learn from past practices and look to research and evidence to 
determine successful practices and policies. Similar to the adage, the 
best offense is a good defense, we have learned through research and 
practice about the importance of focusing on prevention. In response to 
the events at Sandy Hook Elementary School, over100 national 
organizations representing over 4 million professionals in education 
and allied fields and over 100 prominent researchers and practitioners 
supported a statement issued by the Interdisciplinary Group on 
Preventing School and Community Violence, which stated, ``Preventing 
violence and protecting students includes a variety of efforts 
addressing physical safety, educational practices, and programs that 
support the social, emotional, and behavioral needs of students.'' \3\
---------------------------------------------------------------------------
    \3\ Interdisciplinary Group on Preventing School and Community 
Violence. Call for More Effective Prevention of Violence. Dec. 19, 
2012. Web. http://curry.virginia.edu/articles/sandyhookshooting.
---------------------------------------------------------------------------
    A review of past initiatives must help inform us of how to move 
forward today. Policies such as zero tolerance, which the American 
Psychological Association found to be ineffective; profiling, for which 
the U.S. Secret Service and U.S. Department of Education revealed no 
accurate or useful demographic or social profile of school 
attackers;\4\ and other simplistic solutions, have not had their 
intended effect.
---------------------------------------------------------------------------
    \4\ Borum, Randy, Dewey G. Cornell, William Modzeleski, and Shane 
Jimerson. ``What Can Be Done About School Shootings? A Review of the 
Evidence.'' Educational Researcher. 39.1 (2010): 27-37. Print.
---------------------------------------------------------------------------
    Instead, school safety policies should encourage strategies that 
support prevention and are rooted in research, such as:
    <bullet> Fostering Communication: ``Comprehensive analyses by the 
U.S. Secret Service, the FBI, and numerous researchers have concluded 
that the most effective way to prevent many acts of violence targeted 
at schools is by maintaining close communication and trust with 
students and others in the community.'' \5\
---------------------------------------------------------------------------
    \5\ Interdisciplinary Group on Preventing School and Community 
Violence. Call for More Effective Prevention of Violence. Dec. 19, 
2012. Web. http://curry.virginia.edu/articles/sandyhookshooting.
---------------------------------------------------------------------------
    Practically, this means policies must (1) support professional 
development and training for school staff--including teachers, 
specialized instructional support personnel, and administrators--
regarding effective communication strategies and initiatives; (2) 
employ a cadre of staff who are professionally trained to address the 
mental health needs of students; and (3) support changes to teacher 
preparation programs which reinforce the importance of communication.
    <bullet> Supporting a Positive School Climate and Connectedness: 
School climate, which impacts school safety, teaching and learning, 
interpersonal relationships, and institutional environment, according 
to researchers cited by the U.S. Department of Education, plays an 
integral role into the academic and social development of students. 
Research has demonstrated that a positive school climate helps create a 
culture of respect, understanding, and caring among educators and 
students where members of the school community feel physically and 
emotionally safe and secure, and facilitates an environment conducive 
to learning.
    Practically, this means: (1) embracing whole school reforms that 
reinforce the important role of having a positive school climate, such 
as Positive Behavior Interventions and Supports; (2) supporting this 
shift in mindset with the tools and resources needed to foster its 
implementation, such as professional development and training, and (3) 
data collection and analysis tools to help schools study and respond to 
local school climate information.
    <bullet> Addressing Needs of Marginalized Students: ``Research 
indicates that those students most at risk for delinquency and violence 
are often those who are most alienated from the school community. 
Schools need to reach out to build positive connections to marginalized 
students, showing concern and fostering avenues for meaningful 
involvement.''
    Practically, this means: We need to confront and address the 
persistent national shortage of special educators who are trained to 
address the complex needs of students with behavioral disorders and the 
shortage of specialized instructional support personnel such as school 
counselors, school social workers, and school psychologists who are 
underutilized and underemployed in schools. In 2011, the U.S. 
Department of Education reported a shortage of special educators in 
every state, continuing a decades-long trend.\6\
---------------------------------------------------------------------------
    \6\ United States. Department of Education Office of Post Secondary 
Education. Teacher Shortage Areas Nationwide Listing: 1990-1991 through 
2012-2013. 2012. Web.
---------------------------------------------------------------------------
    <bullet> Increasing school based mental health services: School 
based mental health services for purposes of screening, providing 
direct services, engaging and supporting families, and serving as a 
connection to community based supports, are critical to providing the 
prevention, response, and treatment that are so vital to students' 
well-being. We must confront the stigma associated with mental health 
problems through multiple avenues, including making it an integral part 
of our educational system.
    Practically, this means: Addressing the national shortage of 
special educators and specialized instructional support personnel by 
reducing the ratios of students to school counselors to 250:1, school 
social workers to 250:1, school psychologists 1,000:1, school nurses 
(750:1) and often increasing the number of other professionals who are 
specifically trained to address the mental health needs of students. In 
many schools, these professionals carry a caseload that far exceeds the 
recommended ratios above and far too often, no school-based mental 
health and student service providers are available to assist students 
in times of crisis, or at any other time.
    In closing, CEC/CCBD stands ready to work with members of Congress 
to promote policies and meaningful actions not only to address violence 
in our nation's schools and communities but to create solutions that 
are rooted in safety, prevention, and an interdisciplinary approach.
                                 ______
                                 

           Prepared Statement of the NAACP Legal Defense and
                         Educational Fund, Inc.

I. Introduction
    The horrific killing of 26 children and adults last December at 
Sandy Hook Elementary School in Newtown, Connecticut shook our nation 
to its core. We continue to grieve with the families of those lost in 
the senseless act of violence, as well as those in Newtown who face 
continual reminders of the loss of their friends and neighbors. We 
thank Chairman Kline, Ranking Member Miller, and Members of the 
Committee for convening a hearing to discuss this very important issue.
    It is intuitive that safe schools are essential to student 
learning. If students are not safe or feel threatened, they cannot 
learn. Experience and research show us that the right policies and 
practices implemented to achieve school safety can have powerful 
effects that transcend preventing danger in schools. Indeed, such 
measures can also lead to increased academic performance, higher 
graduation rates, and lower rates of disciplinary infractions. 
Conversely, some well-intended but ill-conceived practices implemented 
in the name of safety can lead to lower academic performance, dropping 
out of school, and higher rates of involvement with the juvenile and 
criminal justice systems, especially for students of color. Both the 
impressive potential of well-founded school safety practices and the 
damaging effects of misguided approaches make this issue central to any 
discussion regarding educational opportunity.
    The tragic shootings at Sandy Hook Elementary School have reminded 
us that even public schools, some of our nation's safest places, can 
experience unspeakable violence. Since Sandy Hook, several proposals 
aimed at improving the safety of schools by increasing the number of 
security personnel have come forth. The National Rifle Association 
(NRA) suggested that every school in America should have an armed 
police officer.\1\ Maricopa County, Arizona, Sheriff Joe Arpaio has 
placed 500 armed, uniformed volunteers outside the schools in his 
county.\2\ And close to Washington D.C., Prince George's County, 
Maryland, has proposed creating a new police force for schools.\3\ 
Likewise, Montgomery County, Maryland aims to double the number of 
School Resource Officers for schools within the county.\4\
    Although we all seek to ensure the safety of all schoolchildren, 
proposals such as those described above ignore the lessons from 
previous tragedies about what works to prevent school violence. We urge 
the Committee to help our nation learn from such tragedies in crafting 
legislative solutions to this one.

II. ``Zero-Tolerance'' Policies and School Police Have Not Meaningfully 
        Improved School Safety
    Following tragic shootings like that at Columbine High School in 
Littleton, Colorado, many states and school districts have adopted and 
implemented ``get tough'' approaches to monitoring school environments, 
such as zero-tolerance policies.\5\ Many also dramatically expanded the 
use of security equipment, such as metal detectors and surveillance 
cameras, as well as deploying additional police in schools.\6\ While 
well-intended, history and experience have shown that these approaches 
to school safety fail to address the actual issues that negatively 
impact students and school safety.\7\
    Designed to address only the most serious school-based incidents, 
both zero-tolerance disciplinary policies and police presence in 
schools are far too often applied to routine instances of student 
misbehavior. While there is no indication that student behavior has 
worsened, school discipline rates are at their all-time highs, double 
what they were in the 1970s.\8\ The Department of Education's most 
recent Civil Rights Data Collection shows that, in the 2009-2010 school 
year, over 3,000,000 students were suspended.\9\ Meanwhile, students 
who attend schools with embedded law enforcement personnel are 
frequently confronted with citations, summonses, and even arrested for 
non-criminal behavior.\10\ At a statewide level, the effect is 
alarming: for example, in Florida, almost 17,000 students per year in 
the 2010-2011 school year, that is, 45 per day, were referred to 
juvenile courts by school-based law enforcement.\11\ The overwhelming 
majority of these referrals were for misdemeanors, such as disruption 
of a school function or disorderly conduct.\12\
    Students of color, African Americans in particular, suffer 
disproportionately from these approaches. The Department of Education's 
Civil Rights Data Collection indicates that ``across all districts, 
African-American students are over 3\1/2\ times more likely to be 
suspended or expelled than their white peers.'' \13\ State-level data 
suggests similarly stark racial disparities in students' contact with 
police. For example, African-American students were three and half 
times more likely to be arrested in school than White students in 
Delaware in 2010-2011.\14\ That same year, African Americans comprised 
only 21% of Florida school enrollment, but accounted for 46% of all 
school-related referrals to law enforcement.\15\
    A wealth of research indicates that reliance on police and 
exclusionary discipline are ineffective at making schools safer. The 
American Psychological Association has found that there is no evidence 
to support the suggestion that using suspension, expulsion, or zero-
tolerance policies results in increases in school safety or 
improvements in student behavior.\16\ In fact, exclusionary discipline 
practices have negative effects on student academic performance: 
students who are suspended and/or expelled, especially those who are 
repeatedly disciplined, are far more likely to be held back a grade, 
drop out of school, or become involved in the juvenile or criminal 
justice system than are students who do not face exclusionary 
discipline.\17\ Moreover, students who are arrested are two times as 
likely to drop out as their peers.\18\
    The individuals experiencing arrest or exclusionary discipline are 
not the only ones who are harmed by these practices. Indeed, research 
shows that schools with high suspension rates score lower on state 
accountability tests, even when adjusting for demographic 
differences.\19\ And when schools involve police in disciplinary 
measures, schools can alienate students and create distrust, thus 
undermining order and safety.\20\
    Involving courts and police in addressing school matters exacts a 
high financial toll on the nation. The Texas Public Policy Foundation 
has called for reforms to school-to-court referral practices because of 
their high costs and low levels of effectiveness.\21\
    Last December, during a Senate Judiciary Subcommittee hearing, 
Acting Administrator for the Department of Justices' Office of Juvenile 
Justice and Delinquency Prevention Melodee Hanes testified to the high 
cost and debilitating administrative burden placed on juvenile courts 
and juvenile detention facilities created by the high number of school-
to-court referrals for school-based misconduct that is more 
appropriately dealt with in the context of school discipline.\22\

III. School Violence Is Best Prevented by Building Trust between 
        Students and Educators
    In the aftermath of the shootings at Columbine High School, the 
U.S. Department of Education and the Secret Service explained that the 
best way to prevent violence targeted at schools is to improve 
connectedness and communication between students and educators.\23\ If 
students feel they can trust an educator, they are far more likely to 
share any tips on, or fears about, school safety as well as any 
personal concerns about bullying, harassment, and discrimination.\24\ 
There are several proven approaches to improving a school's learning 
environment that help build trust between students and teachers.
    Notably, recent research suggests that involving police in school 
discipline can breed student alienation and distrust, severing the 
connectedness for which both ED and the Secret Service have called.\25\
    School-Wide Positive Behavior Support (SWPBS) is an evidence-based 
approach to school discipline shown to reduce disciplinary referrals, 
support improvements in student attendance and academic achievement, 
and improve teacher perceptions of school safety.\26\ Schools 
implementing SWPBS define and teach school-wide expectations for 
student conduct and acknowledge students' positive behavior.\27\ SWPBS 
schools monitor trends in disciplinary data to guide school-wide 
interventions. For example, a significant number of disciplinary 
referrals originating in a hallway could spur a school to station more 
teachers there during passing periods. Similarly, schools provide 
targeted and individualized supports to students who receive more 
disciplinary referrals than others. Such supports can be as simple as 
regular check-ins with one educator and as intensive as wraparound 
services for those students whose needs warrant them.
    Over 16,000 U.S. public schools have received training in 
SWPBS.\28\ When two Illinois middle schools merged to form Alton Middle 
School in 2006, the school's disciplinary rates spiked significantly. 
After implementing SWPBS and training teachers in addressing racial 
bias, Alton became a far more orderly school and reduced its suspension 
rate by 25% with the most significant drop of African-American 
students.\29\
    Restorative Justice is a promising approach to resolving conflicts 
within a school community in ways that strengthen bonds among students 
and between students and educators.\30\ To promote reconciliation and 
mutual responsibility, schools implementing restorative justice engage 
all members of the school community affected by a conflict in 
addressing and resolving it. Denver Public Schools revised its 
discipline code around the principles of restorative justice and has 
cut its suspension rate in half, its expulsion rate by a third, and its 
rate of referrals to law enforcement by ten percent since then.\31\
    School Offense Protocols are being implemented in jurisdictions in 
Georgia, Connecticut, and Kansas, among other states.\32\ Piloted in 
Clayton County, Georgia, school offense protocols delineate between 
matters of safety, to be handled by law enforcement, and matters of 
discipline, to be handled by educators.\33\ After a 1248 percent 
increase in court referrals from schools, 90% of which were for 
misdemeanors, the Clayton County Juvenile Court convened 
representatives from the school district, law enforcement, and mental 
health and wellness providers.\34\ The resulting protocol has led to a 
near 70 percent drop in court referrals from schools and a 24 percent 
increase in graduation rates.\35\ Notably, the school district's 
referral rates for weapons possession (mandatory referrals under state 
law) dropped by over 60 percent since the protocol's 
implementation.\36\

IV. Recommendations
    1. Support best practices in school climate to improve trust and 
help prevent school violence.
    The Positive Behavior for Safe and Effective Schools Act (H.R. 
3165, 112th Cong.) and the Restorative Justice in Schools Act (H.R. 
415, 112th Cong.) would facilitate training in, and implementation of, 
the best practices described above and would be essential additions to 
a reauthorized Elementary and Secondary Education Act (ESEA).
    2. Monitor school climate to provide assistance--not punishment--to 
schools from local and state educational agencies.
    School discipline and climate should serve as indicators of a 
school's success or needs and should be monitored with attendance, 
achievement, and graduation rates. Representative George Miller's 
Amendment to the Student Success Act (H.R. 3989, 112th Cong.), which 
would track school discipline rates as an indicator of school 
improvement in persistently low-achieving schools, is a promising 
example.
    3. Support the development of comprehensive local or regional 
strategies to improve student safety while reducing the number of youth 
entering the justice system.
    Congress should promote expanded educational opportunities for 
youth by supporting community-based solutions such as those implemented 
in Clayton County (described above). Funds should go toward the 
development and implementation of multi-year, comprehensive local or 
regional plans to reduce the use of exclusionary discipline and the 
number of youth entering the juvenile and criminal justice systems. The 
Youth PROMISE Act (H.R. 2721, 112th Cong.) would help support this 
purpose.

                                ENDNOTES

    \1\ Wayne LaPierre, Remarks at NRA Press Conference (Dec. 21, 2012) 
(transcript available at http://www.nytimes.com/interactive/2012/12/21/
us/nra-news-conference-transcript.html).
    \2\ Nirvi Shah, Nations, Districts Step Up Safety, Education Week, 
Jan. 23, 2013, at 1.
    \3\ Donna St. George & Ovetta Wiggins, Schools Taking Serious Look 
at Putting Armed Police in Schools after Massacre, Wash. Post, Feb. 7, 
2013, at A1.
    \4\ Id.
    \5\ Russell Skiba et al., Are Zero Tolerance Policies Effective in 
the Schools? A Report by the American Psychological Association Task 
Force 23-25 (2006), available at http://www.apa.org/pubs/info/reports/
zero-tolerance-report.pdf.
    \6\ Id.
    \7\ See, Amanda Petteruti, Justice Policy Institute, Education 
Under Arrest: the Case against Police in Schools (2011).
    \8\ Johanna Wald and Daniel Losen, Defining and Redirecting a 
School-to-Prison Pipeline. In Wald & Losen (Eds.), New Directions for 
Youth Development (no. 99; Deconstructing the School-to-Prison 
Pipeline) 9-15 (2003).
    \9\ Daniel Losen and Jonathan Gillespie, Opportunities Suspended: 
the Disparate Impact of Disciplinary Exclusion from School 6 (2012).
    \10\ See, Amanda Petteruti, supra note 7.
    \11\ Florida Department of Juvenile Justice, Delinquency in 
Florida's Schools: A Seven Year Study 3 (2011), available at http://
www.djj.state.fl.us/docs/research2/2010-11-delinquency-in-schools-
analysis.pdf?sfvrsn=0.
    \12\ Id. at 8-9; ACLU of Florida, Advancement Project, & Florida 
State Conference of the NAACP, Still Haven't Shut Down the School-to-
Prison Pipeline 6-8 (2011).
    \13\ OFFICE FOR CIVIL RIGHTS, U.S. DEPARTMENT OF EDUCATION, CIVIL 
RIGHTS DATA COLLECTION SUMMARY 2 (2012). http://ocrdata.ed.gov/
Downloads/CMOCRTheTransformedCRDCFINAL3-15-12Accessible-1.pdf. Despite 
being only 18% of students in the Civil Rights Data Collection sample, 
African-American students were 35% of students suspended once, 46% of 
those suspended more than once, and 39% of students expelled. 
Furthermore, the CRDC indicates that ``Over 70% of students involved in 
school-related arrests or referred to law enforcement are Hispanic or 
African-American.''
    \14\ Chief Judge Chandlee Johnson Kuhn, Family Court of the State 
of Delaware & Kerrin C. Wolf, Fightin' and Fussin': An Examination of 
School Arrests, Adjudications, and Dispositions in Delaware 
(presentation on file with the authors).
    \15\ Florida Department of Juvenile Justice, supra note 11 at 3.
    \16\ Skiba et al, supra note 5 at 71-79.
    \17\ Tony Fabelo et al., Breaking Schools' Rules: A Statewide Study 
of How School Discipline Relates to Students' Success and Juvenile 
Justice Involvement x, 40-46, (2011).
    \18\ Gary Sweeten, Who Will Graduate? Disruption of High School 
Education by Arrest and Court Involvement 23 JUST. Q. 462 (2006).
    \19\ Skiba et al, supra note 5 at 44-48.
    \20\ Matthew J. Meyer & Peter E. Leone, A Structural Analysis of 
School Violence and Disruption: Implications for Creating Safer 
Schools, 22 Education and Treatment of Children 333, 352 (1999) 
(finding highly-restrictive efforts to control students by involving 
police in school disciplinary matters cause higher levels of school 
disorder by diminishing students' belief in the legitimacy of school 
staff authority); Randall R. Beger, The Worst of Both Worlds, 28 Crim. 
Just. Rev. 336, 340 (2003) (finding that aggressive security measures 
produce alienation and mistrust among students which, in turn, can 
disrupt the learning environment and create an adversarial relationship 
between school officials and students).
    \21\ Right on Crime, Priority Issues: Juvenile Justice (2010), at 
http://www.rightoncrime.com/priority-issues/juvenile-justice/.
    \22\ Ending the School to Prison Pipeline: Hearing Before the 
Subcomm. on the Constitution, Civil Rights, and Human Rights of the S. 
Comm. on the Judiciary, 112th Cong. 2-3 (statement of Melodee Hanes, 
Acting Administrator for the Department of Justices' Office of Juvenile 
Justice and Delinquency Prevention).
    \23\ U.S. Secret Service and U.S. Department of Education, The 
Final Report and Findings of the Safe Schools Initiative: Implications 
for the Prevention of School Attacks in the United States (May 2002), 
available at http://www.secretservice.gov/ntac/ssi--final--report.pdf.
    \24\ Id.; Dewey G. Cornell et al. A Call for More Effective 
Prevention of Violence (Dec. 19 2012), available at http://
curry.virginia.edu/articles/sandyhookshooting.
    \25\ Mayer & Leone, supra note 28.
    \26\ Robert H. Horner et al, A Randomized Wait-List Controlled 
Effectiveness Trial Assessing School-Wide Positive Behavior Support in 
Elementary Schools, 11 J. POSITIVE BEHAVIOR INTERVENTIONS 133 (2009).
    \27\ See generally, George Sugai & Brandi Simonsen, Positive 
Behavioral Interventions and Supports: History, Defining Features, and 
Misconceptions (2012), available at http://www.pbis.org/school/pbis--
revisited.aspx.
    \28\ Id.
    \29\ Matt Cregor, Emphasize the Positive and Personal, Education 
Week, Jan. 10, 2013, at 40.
    \30\ See generally, Sharon Lewis, International Institute for 
Restorative Practices, Improving School Climate: Findings from Schools 
Implementing Restorative Practices (2009).
    \31\ Advancement Project. Test, Punish, and Push Out: How ``Zero 
Tolerance'' and High-stakes Testing Funnel Youth into the School-to-
Prison Pipeline 35 (2010); Cregor, supra note 36.
    \32\ Ending the School to Prison Pipeline: Hearing Before the 
Subcomm. on the Constitution, Civil Rights, and Human Rights of the S. 
Comm. on the Judiciary, 112th Cong. 5-6 (statement of the Honorable 
Steven C. Teske, Chief Judge, Juvenile Court of Clayton County, GA).
    \33\ Id. at 3.
    \34\ Judge Steven C. Teske & Judge J. Brian Huff, The Court's Role 
in Dismantling the School-to-Prison Pipeline, Juv. & Fam. Justice 
Today, Winter 2011, at 16, available at http://www.ncjfcj.org/sites/
default/files/Today%20Winter%202011Feature%20%282%29.pdf.
    \35\ Statement of the Honorable Steven C. Teske, supra note 39 at 3 
& 4.
    \36\ Steven C. Teske, A Study of Zero Tolerance Policies in 
Schools: A Multi-Integrated Systems Approach to Improve Outcomes for 
Adolescents, 24 J. of Child & Adolescent Psychiatric Learning 88, 93 
(2011), available at http://www.ncjfcj.org/sites/default/files/
Zero%20Tolerance%20Policies%20in%20Schools%20%282%29.pdf.
                                 ______
                                 

  Prepared Statement of the National Disability Rights Network (NDRN)

    The National Disability Rights Network (NDRN) would like to thank 
Chairman Kline, Ranking Member Miller, and the members of the Committee 
on Education and the Workforce, for focusing their attention on the 
importance of ensuring that students are safe when they go to school. 
The tragic events that took place in Newtown, Connecticut magnify the 
importance of addressing this issue. Ensuring that schools are safe for 
students to learn and for teachers to teach must be at the forefront of 
any discussion. The expectation cannot be that children will develop 
academic and social skills necessary for them to be successful adults, 
if they do not feel safe at school. As recognized in the testimony of 
Mr. Pompei and Mr. Osher, the emotional and social needs of students 
must be addressed, if we expect students to learn academic subjects. 
Negative school climates, bullying, restraint and seclusion, and other 
practices, lead to students not feeling safe in school, and, as a 
result, dropping out, being suspended or expelled. Students deserve 
safe and supportive schools that implement evidence-based practices 
that create positive school climates, and schools where students feel 
safe.
    NDRN is the national membership association for the Protection and 
Advocacy (P&A) System, the nationwide network of congressionally-
mandated agencies that advocate on behalf of persons with disabilities 
in every state, the District of Columbia, Puerto Rico, U.S. territories 
(American Samoa, Guam, U.S. Virgin Islands, and the Northern Mariana 
Islands), and there is a P&A affiliated with the Native American 
Consortium which includes the Hopi, Navaho and Piute Nations in the 
Four Corners region of the Southwest. NDRN and the P&As promote a 
society where people with disabilities enjoy equality of opportunity 
and are able to participate fully in community life by exercising 
informed choice and self-determination. For over thirty years, the P&A 
System has worked to protect the human and civil rights of individuals 
with disabilities of any age and in any setting. Collectively, the P&A 
agencies are the largest provider of legally-based advocacy services 
for persons with disabilities in the United States. P&A agencies use 
multiple strategies to ensure the rights of persons with disabilities 
are protected including information and referral, monitoring, 
investigations, and individual and systemic advocacy. In addition, P&A 
agencies engage in training for stakeholders (e.g., parents, teachers, 
administrators, state and local government officials, and advocates) on 
a wide range of disability issues.
    Although today's hearing focuses on the context of how to create 
schools that are safe, as Mr. Bond recognizes in his testimony, it is 
critical that safety in schools is addressed in the greater context of 
safety in the community. In recent years, the media have reported on 
both natural and man-made emergencies including but not limited to 
shootings on college campuses, malls and movie theaters, in addition to 
numerous natural disasters and other forms of violence within and 
outside of schools. The work of the P&As and NDRN in the dual arenas of 
emergency preparedness, response and recovery, and representation of 
students with disabilities, makes the P&As and NDRN uniquely qualified 
to provide a perspective on the topic of today's hearing.
Emergency Preparedness, Response and Recovery
    Emergency preparedness, response and recovery have been a priority 
for P&A agencies and NDRN for many years. This has included work by the 
P&As and NDRN on the Katrina Aid for Today Project as well as memoranda 
of understanding or agreement with the American Red Cross and Federal 
Emergency Management Agency, developed to enhance collaboration during 
disasters.
Making School Safe for All Students
    With regard to the education of students with disabilities, the 
P&As in many states use 20 percent or more of their budgets to work on 
a range of issues impacting students with disabilities.
    For example:
    The Minnesota Disability Law Center (MDLC) advocated for a six-
year-old boy with Asperger Syndrome and a sensory processing disorder. 
The student had experienced numerous issues in school and was being 
frequently physically restrained or suspended. In one instance, he was 
physically restrained when he refused to come out from his hiding place 
under a table. The boy told his parents that a school staff person had 
dropped him and hurt his arm. His parents were concerned for his 
safety--that their son was not in the proper program or getting the 
services he needed. MDLC staff reviewed his school records and 
discovered that the boy was being restrained on a weekly basis and had 
been suspended for more than 13 days for behavior due to his 
disability. The school had not conducted a manifestation determination 
review and had not provided the parents with proper notices about the 
use of restraints. A manifestation determination review (MDR) is a 
legal process intended to ensure that a student is not punished for 
behavior related to his or her disability. With MDLC's assistance, a 
proper functional behavior assessment (FBA) was conducted. An FBA 
evaluates data to determine the reason behind a student's misbehavior. 
The FBA results confirmed that the boy's placement was not an 
appropriate placement. The boy was then placed in an autism-based 
sensory program which was a better fit for him. MDLC assisted the 
parents in filing a complaint with the Minnesota Department of 
Education (MDE). As a result of this complaint, the school district was 
found to be in violation for failing to conduct an FBA and for using 
restraints without proper training and reporting. MDE found that the 
boy had been denied a free and appropriate public education (a 
violation of the special education law) and ordered compensatory 
educational services for him. Following proper evaluations and an 
appropriate placement, the boy now enjoys going to school and is making 
great gains. He has not been suspended or restrained since, even in an 
emergency.
    Disability Rights New Jersey (DRNJ) intervened on behalf a 17 year-
old young man who has Attention Deficit Hyperactivity Disorder (ADHD) 
and learning disabilities. The student's mother contacted DRNJ because 
her son had been suspended from school for nine days for fighting with 
another student. When he tried to return to the school following the 
suspension, the school principal refused to allow him to return to 
school and he was sent home.
    The student went without any educational services for a couple of 
weeks until the school district began providing him with homebound 
instruction. A month after the suspension began; the district finally 
conducted a MDR and found that the behavior in question was a 
manifestation of his disability. As such, he could not be punished for 
it with a suspension of longer than ten days. The Individualized 
Education Program (IEP) team, the team that determines his school 
program, agreed to send him to a different in-district school, but 
failed to provide transportation so he was unable to attend.
    DRNJ intervened with the district and had the district arrange 
transportation so that he could return to school. DRNJ also filed a 
complaint with the New Jersey Office of Special Education (OSE) seeking 
compensatory services for the time that he missed from school and for 
corrective action regarding the district's discipline procedure. OSE 
investigated the matter and found that the district had violated the 
Individuals With Disabilities Education Act's ( IDEA's) discipline 
procedures by failing to conduct a manifestation determination review 
before the 10th day of suspension and for failing to begin home 
instruction by the 5th day of his suspension. OSE ordered that the 
district conduct an in-service training for all administrators as well 
as child study team members on discipline procedures for individuals 
with disabilities. In addition, OSE ordered compensatory services for 
the student.

School Resource Officers
    The National Center on Education Statistics, defines a school 
resource officer as a ``career law enforcement officer, with sworn 
authority, deployed in community-oriented policing, and assigned by the 
employing police department or agency to work in collaboration with 
school and community-based organizations.'' School Resource Officers 
(SROs) are often a partner in our current emergency preparedness 
community. In order to ensure they are available to keep students safe, 
it is critical that they are allowed to provide the service for which 
they are trained.
    Law enforcement should be used only to protect school safety--never 
to implement garden variety school discipline. Discipline that does not 
directly impact school safety is best left to educators who are trained 
to address it. Students are more likely to confide safety concerns to 
SROs if they are not also acting as assistant principals, and it would 
be tragic if an SRO were unavailable to stop an armed assailant from 
entering the school building because she was at the office with a 
student caught doing something non-violent, like text messaging in 
class.
    As sworn police officers, SROs are typically accountable first to 
the police department, and second to the school district. Schools and 
police departments need clear, written agreements that specify what the 
SRO's roles and duties will be. SROs need additional training beyond 
the typical law enforcement training about student behavior. In the 
same vein, we support the President's call for training teachers on the 
behavioral needs of students in the context of the classroom, and 
recognize its importance in improving school climate. School children 
are not small adults. Recent advances in medical imaging have supported 
what parents know--that young people actually think and reason 
differently than adults do.
    It is unfair to ask any school staff or SRO to manage student 
behavior without providing the tools necessary to keep everyone safe. 
There are school wide practices that have been proven to reduce school 
conflict and are widely accepted in the education community. These 
include ``Positive Behavior Interventions and Supports'' (PBIS) and 
restorative justice practices. In addition to these, SROs should be 
trained in, child and adolescent development, techniques for working 
with youth with disabilities, including youth with mental health needs, 
and de-escalating violent situations. Without this training, SROs 
cannot effectively increase safety in our nation's schools.
    Education and youth advocates oppose increasing the number of SROs. 
Evidenced based practices like those above, protect students without 
the negative impact on particular groups of children, as occurs 
currently with SROs.
    We have over fifteen years of experience to inform us on the 
negative impact of increasing law enforcement in school, especially on 
children of color and children with disabilities. A recent study by the 
Justice Policy Institute[2] (JPI) found that increase in law 
enforcement presence, especially in the form of SROs, coincided with 
increases in referrals to the justice system for minor offenses like 
disorderly conduct. According to the JPI, these referrals have a 
lasting effect on youth, as arrests and referrals to the juvenile 
justice system disrupt the educational process and can lead to 
suspension, expulsion, or other alienation from school. It is well 
documented that students with disabilities are more likely to drop-out 
of school or be suspended or expelled when compared to their peers 
without disabilities.\1\
---------------------------------------------------------------------------
    \1\ ``Education Under Arrest: The Case Against Police In Schools'' 
J.P.I., November 2011, http://www.ceep.indiana.edu/projects/PDF/PB--
V4N10--Fall--2006--Diversity.pdf; http://www.dignityinschools.org/
sites/default/files/
DSC%20National%20Pushout%20Fact%20Sheet%2012.10.pdf; http://
www.ncset.org/publications/viewdesc.asp?id=425
---------------------------------------------------------------------------
    NDRN firmly believes that additional SROs should not be placed in 
schools that: 1) have no school based mental health professionals, or 
2) have school-based mental health professionals in ratios far below 
those recommended by their professional organizations, as documented by 
Mr. Pompei in his testimony. Prevention, by meeting the needs of all 
students before a crisis erupts, is the most critical part of any plan 
to ensure school safety.
    We can choose not to set youth on a track to drop out of school 
that puts them at greater risk of becoming involved in the justice 
system later on, all at tremendous costs for taxpayers, the youth and 
their communities. One significant step is to ensure that SROs provide 
a school safety rather than a school discipline function, their roles 
are limited, clear and well defined, and they are specifically trained 
to work with children and youth.
    The examples above show only a sample of the range of work that 
P&As engage in everyday to ensure students with disabilities are safe 
at school. Again, thank you for holding this important hearing, NDRN 
and the P&A System are eager to work with the Education and Workforce 
Committee to ensure all students are feel safe when they enter school 
each day.
                                 ______
                                 
    [Additional submissions from Mr. Osher follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Mr. Bill Bond,
National Association of Secondary School Principals, 6165 Keaton Lane, 
        Paducah, KY 42001.
    Dear Mr. Bond: Thank you for testifying at the February 27, 2013 
hearing on ``Protecting Students and Teachers: A Discussion on School 
Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
    2. Teachers play a critical role in identifying students who need 
to access mental health services. The current shortage of resources 
such as school psychologists, counselors, and nurses is alarming. 
Having someone in a school with expertise in these issues, especially 
someone who can connect the dots between education, health 
professionals, and home, is critical. In addition, Mr. Bond, you stated 
that personnel are sometimes prevented ``from helping students and 
families access appropriate mental health and well-being services.'' 
What are some of these barriers, especially in schools lacking 
psychologists and counselors? Do issues of student privacy play into 
this? Without professionals in schools, what resources do teachers and 
faculty have for identifying students in need of help?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Mr. Brett Bontrager,
Stanley Black & Decker, Inc., 9998 Crosspoint Blvd., Suite #200, 
        Indianapolis, IN 46256.
    Dear Mr. Bontrager: Thank you for testifying at the February 27, 
2013 hearing on ``Protecting Students and Teachers: A Discussion on 
School Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Mr. Mo Canady,
National Association of School Resource Officers, 2020 Valleydale Road, 
        Suite 207A, Hoover, AL 35244.
    Dear Mr. Canady: Thank you for testifying at the February 27, 2013 
hearing on ``Protecting Students and Teachers: A Discussion on School 
Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                       REP. RICHARD HUDSON (R-NC)

    1. My district in North Carolina is largely rural. What are some of 
the distinct challenges a rural school could face? What are some of the 
costs associated with implementing a safety plan in a rural school?
    2. There are distinctly different challenges when looking at 
security for urban and rural schools. What are some of the differences 
that schools located in urban, suburban, and rural areas need to 
address in their safety plans?
    3. Do you have any figures that show the effectiveness of resource 
officers?
    4. How much does it cost local school districts to develop and 
implement a school safety plan?
    5. What resources are currently available for schools and school 
districts to help improve their security plans?

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Mr. Frederick Ellis,
Fairfax County Public Schools, 8115 Gatehouse Road, Suite 3674, Falls 
        Church, VA 22042.
    Dear Mr. Ellis: Thank you for testifying at the February 27, 2013 
hearing on ``Protecting Students and Teachers: A Discussion on School 
Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Dr. David Osher,
American Institutes for Research, 1000 Thomas Jefferson Street, NW, 
        Washington, DC 20007.
    Dear Dr. Osher: Thank you for testifying at the February 27, 2013 
hearing on ``Protecting Students and Teachers: A Discussion on School 
Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 22, 2013.
Mr. Vincent Pompei,
Val Verde Unified School District, 1440 Hotel Circle North, #442, San 
        Diego, CA 92108.
    Dear Mr. Pompei: Thank you for testifying at the February 27, 2013 
hearing on ``Protecting Students and Teachers: A Discussion on School 
Safety.'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
committee after the hearing. Please provide written responses no later 
than April 9, 2013 for inclusion in the final hearing record. Responses 
should be sent to Mandy Schaumburg or Dan Shorts of the committee staff 
who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                         REP. RUSH HOLT (D-NJ)

    1. I am cosponsor of legislation, the Student Support Act (H.R. 
320), which would provide states with money to improve the ratio of 
mental health providers (school counselors, psychologists, and guidance 
counselors) to students in schools of each state. Mr. Pompei, in your 
experience as a school counselor, what is the maximum number of 
students a school counselor can be responsible for in order to do their 
job effectively? Should this caseload responsibility be adjusted to 
reflect the changing academic, emotional, and social development needs 
of students at different grade levels?
    2. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?
                                 ______
                                 
    [Responses to questions submitted for the record follow:]

       Mr. Bond's Response to Questions Submitted for the Record

                             REP. RUSH HOLT

    1. In your opinion, what are the core characteristics of a ``non-
violent'' school atmosphere? In your experiences with the schools you 
have worked with, are schools engaging in the process of defining what 
a safe and non-violent atmosphere means, and, if so, are they sharing 
their definition of a non-violent environment with the faculty, staff, 
students and parents of the school community? What reasons can you 
identify that would impede a school from engaging in this process?

    Bond: The principal's first responsibility as a school leader is to 
foster a safe, orderly, warm, and inviting environment where students 
come to school ready and eager to learn. Schools should implement 
policies, practices and structures to ensure that all students have a 
relationship with a trusted adult in the school and to eliminate the 
possibility of students remaining anonymous. The culture of the school 
must support and be supported by attitudes, values, and behaviors that 
promote high expectations and a belief that each student is capable of 
achieving personal and academic success. Clear expectations regarding 
student behaviors must be conveyed to students, staff members, and 
parents. Fair and natural consequences, as opposed to punitive ones, 
must be employed at all times.
    As a member of the National Safe Schools Partnership, NASSP 
believes that Congress should bolster federal programs to prevent 
bullying and harassment in our nation's schools, which will have a 
dramatic impact in improving school safety and, correspondingly, 
student achievement for all students.
    Specifically, the federal government must support education, health 
care, civil rights, law enforcement, youth development, and other 
organizations to ensure that:
    <bullet> Schools and districts have comprehensive and effective 
student conduct policies that include clear prohibitions regarding 
bullying and harassment;
    <bullet> Schools and districts focus on effective prevention 
strategies and professional development designed to help school 
personnel meaningfully address issues associated with bullying and 
harassment; and
    <bullet> States and districts maintain and report data regarding 
incidents of bullying and harassment to inform the development of 
effective federal, state, and local policies that address these issues.

                         REP. FREDERICA WILSON

    1. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

    Bond: Access to school-based mental health services and supports 
directly improves students' physical and psychological safety, academic 
performance, and social--emotional learning. This requires adequate 
staffing levels in terms of school-employed mental health professionals 
(school counselors, school psychologists, school social workers, and in 
some cases, school nurses) to ensure that services are high quality, 
effective, and appropriate to the school context. Having these 
professionals as integrated members of the school staff empowers 
principals to more efficiently and effectively deploy resources, ensure 
coordination of services, evaluate their effectiveness, and adjust 
supports to meet the dynamic needs of their student populations. 
Improving access also allows for enhanced collaboration with community 
providers to meet the more intense or clinical needs of students.
    During the 111th Congress, NASSP supported the Increased Student 
Achievement through Increased Student Support Act, which would have 
created a pipeline program to train additional school counselors, 
psychologists, and social workers and place them in high-need schools. 
NASSP also supports the Mental Health in Schools Act (H.R. 628), which 
requires in-service training for all school personnel in the techniques 
and supports needed to identify children with, or at risk of, mental 
illness and the use of referral mechanisms that effectively link such 
children to appropriate treatment and intervention services in the 
school and in the community.

                         REP. SUZANNE BONAMICI

    1. This is a question for all of the panelists: what kind of 
experience do you have creating emergency plans for natural disasters? 
How is planning for a natural disaster similar to and different from 
planning for something like a school shooting? What are the special 
needs that must be met and the challenges faced?

    Bond: An emergency plan for a natural disaster is very similar to 
any other crisis plan. The common denominators are the same. In any 
crisis, you are dealing with the safety of students, staff and 
communication with parents and the community. However, natural 
disasters have the added dimension of the physical destruction of 
infrastructure, such as facilities and communication.
    In 2007, eight students were killed during a tornado in Enterprise, 
Alabama which also destroyed the school. As with a school shooting, the 
same process was employed to respond and work with students, parents 
and the community to restore normalcy. While a natural disaster is more 
complicated because not only have you lost lives, but the physical 
infrastructure of the school is affected. This physical destruction 
delays the recovery process but schools do return to their educational 
mission quickly. A critical piece of recovery after any type of violent 
or traumatic event at a school is immediate emergency assistance from 
the Department of Education to assist students and the school 
community's emotional well-being. Furthermore, in a natural disaster, 
sustained federal funding for reconstruction from FEMA and other 
agencies is necessary to restore the physical infrastructure affected 
or destroyed.
    NASSP is very supportive of the Project School Emergency Response 
to Violence (SERV) program which allows schools to receive funding for 
short and long-term counseling and other education related services to 
help them recover from a violent or traumatic event in which the 
learning environment has been disrupted.

    2. Mr. Bond, you stated that [school] personnel are sometimes 
prevented ``from helping students and families access appropriate 
mental health and well-being services.'' What are some of these 
barriers, especially in schools lacking psychologists and counselors? 
Do issues of student privacy play into this? Without professionals in 
schools, what resources do teachers and faculty have for identifying 
students in need of help?

    Bond: Principals--on behalf of their schools and communities--need 
unfettered access to programs, supports and services when it comes to 
responding to threats on the health and safety of students directly, as 
well as prevention and intervention before a student's behavior 
escalates to violence and threatens the safety of others. Principals 
believe the federal government must do more to encourage local 
education and community health system cooperation, and remove barriers 
to effective service delivery. There is a strong national interest for 
the federal government to set the standards so that all professionals 
in schools, mental health and law enforcement can work together to 
provide services for students and families, especially young children, 
when the need is identified.
    Student privacy issues keep schools from hearing important health 
information that could help to better serve students within the school 
environment. State and federal privacy laws prohibit various entities 
from communicating with each other about a student's problems and keeps 
everyone from being able to provide the services necessary to meet a 
student's needs.
    NASSP urges federal policymakers to remove barriers between 
education and local health service agencies, and encourage local 
communities to focus on schools as the ``hub'' for service delivery. 
Local communities must be encouraged to break down the silos between 
community health and education systems in the interest of school 
safety. We believe that all partners and stakeholders in the success of 
our education and community health systems must work together toward 
the common goal of keeping our schools and communities safe. 
Communities, states, and the nation generally have made only marginal 
strides in creating and supporting an infrastructure that provides all 
children and families with services that are connected to the school 
communities. In many cases, principals are simply unable to get 
students and families access to services that are needed even when the 
appropriate programs exist in the community.
    District-wide policies must support principals and school safety 
teams to provide services in school-based settings and strengthen the 
ability of schools to respond to student and family needs directly. 
While working to improve school counselor-to-student ratios, districts 
can begin to move toward more effective and sustainable services by:
    <bullet> Assigning a school psychologist, school counselor, or 
school social worker to coordinate school-based services with those 
provided by community providers;
    <bullet> Ensuring that the school data being collected and 
resulting strategies are addressing the most urgent areas of need with 
regard to safety and climate;
    <bullet> Providing training that targets the specific needs of 
individual schools, their staffs, and their students; and
    <bullet> Reviewing current use of mental health staff and 
identifying critical shifts in their responsibilities to bolster 
prevention efforts.
                                 ______
                                 

     Mr. Bontrager's Response to Questions Submitted for the Record

    Chairman Kline, thank you again for the opportunity to testify at 
the February 27th, 2013 hearing on ``Protecting Students and Teachers: 
A Discussion on School Safety.'' I have included an answer below to the 
question put forth by Representative Suzanne Bonamici regarding 
preparations for natural disasters: The other questions included in the 
follow up document fell outside of my scope of expertise.

    Question: ``What kind of experience do you have creating emergency 
plans for natural disasters? How is planning for a natural disaster 
similar to and different from planning for something like a school 
shooting? What are the specific needs that must be met and the 
challenges faced?''

    Answer: In today's environment we are typically seeing All-Hazards 
Emergency Response Plans. These plans provide the framework for 
managing all natural hazards and human threats typically following the 
National Incident Management System (NIMS). High consequence threats 
like tornados and active shooter typically have their own sections 
within the Emergency Response Plans. Although responses may differ for 
specific events, the planning and preparedness process is the same. The 
plans must be written; training and exercise must be conducted, the 
plans must be updated on a regular basis and Emergency Responders must 
be included in the process.
    Planning for a natural disaster versus planning for a school 
shooting:
    Similarities: In any emergency having a thought out plan with an 
attempt to anticipate possible scenarios and having practiced this plan 
beforehand will aid in mitigating damage and facilitate response time, 
to ultimately increase chances of a better outcome. Having an organized 
and rehearsed response to any disaster or event often leads to better 
results. Responders need access to communications, trained resources, 
and appropriate equipment.
    Differences: Responding to a natural disaster is different than a 
shooter scenario in that in a disaster you are responding to an event 
that has no conscientiousness. In a shooter scenario you are dealing 
with a person or group that is actively intent on doing harm and at the 
very least has some form of thought out plan on how to do this. 
Regardless of how you respond to a natural disaster the disaster 
remains unaware of your actions toward it. Responding to a shooter(s) 
in the correct or incorrect way is more likely to alter the outcome of 
the event.
    Depending upon where you live, natural disasters can include 
anything from a flood, tornado, hurricane, or a forest fire to an 
earthquake or volcanic eruption. When planning for a natural disaster, 
having a written, agreed upon and practiced plan in place is important 
just like it is for any other emergency scenario. When it comes to 
natural disasters building construction and facility layouts can play 
an important role in keeping the occupants safe. For example, building 
structures to withstand hurricane force winds and earthquakes or 
locating electrical equipment and other infrastructure systems where 
they are safe from flooding. Having systems in place for long-term 
sustainability can also be important in the event of loss of power or 
potable water in a natural disaster where the occupants may be isolated 
from help and without utilities for hours or even days.
    Please let me know if there is any other way my team and I can 
assist. We thank you again for the opportunity to assist in this 
important initiative.
                                 ______
                                 

      Mr. Canady's Response to Questions Submitted for the Record

                          REP. RICHARD HUDSON

    1. One of the challenges faced by rural districts is typically a 
longer response time by first-responders. This can certainly increase 
the need to have a first-response presence (SRO) on a school campus in 
a rural environment. Many rural school districts are also smaller in 
size which also means that they have a smaller staff. This means that 
there are fewer members of the school safety team thereby increasing 
the workload of the members.
    2. Costs associated with implementing a school safety plan in a 
rural environment would include the writing and printing of the plan 
along with a site safety assessment of the campus. Costs would increase 
with the implementation of strategies such as electronic visitor entry 
systems, CPTED improvements and security personnel.
    3. In general, most security practices for schools whether rural, 
suburban or urban are similar in nature. However, there are certainly 
issues like traffic flow that would be vastly different from an urban 
to a rural environment. The issue of response has been addressed 
previously but would certainly have a bearing on the security plan. For 
instance, rural school districts may need to be prepared to remain in a 
lockdown for a longer period of time than a suburban or urban district.
    4. Much of the work done by an SRO is difficult to quantify. 
Relationship building is at the foundation of their success. I would 
refer you to our report; ``To Protect and Educate'' for our best 
information regarding the work of SRO's. The report is available at 
www.nasro.org.
    5. The cost of the safety plan is really dependent on the size of 
the district and the amount of resources that are put into the plan.
    6. The National School Safety Center is an excellent resource for 
information on school security plans. Their website is www.nssc1.org.

                             REP. RUSH HOLT

    1. Creating a non-violent school atmosphere can certainly be a 
challenge, especially when the violence is brought to the school campus 
from outside. Clear-cut policies regarding issues of harassment can be 
helpful but more must be done. A gentleman by the name of Teny Gross is 
an excellent resource on this subject matter. He is the Executive 
Director for the Institute for the Study and Practice of Nonviolence. 
The website for his organization is www.nonviolenceinstitute.org.

                         REP. FREDERICA WILSON

    1. I would agree with an increase in school counselors across the 
country. As an SRO for 12 years, I worked very closely with the 
counselors in our school district. They are also a critical component 
of any effective school safety team.

                         REP. SUZANNE BONAMICI

    1. As far as my experience in planning for natural disasters, I 
cannot say that this specifically falls within my realm of expertise. 
However, I was asked to serve as one of the writers for my former 
school districts school safety plan. During this process I certainly 
learned a great deal more about planning for natural disasters.
    2. Some of the similarities that I have seen in planning for 
natural disasters as well as man--made disasters include things like 
evacuation procedures, shelter-in-place procedures and re-unification 
procedures. The major difference in the two is that in an act of 
violence it becomes necessary to stop the violence from occurring 
before anything else can be accomplished.
    I hope that these answers to your questions are helpful. Please 
feel free to contact our office if we can be of further assistance.
                                 ______
                                 

       Mr. Ellis' Response to Questions Submitted for the Record

                         REP. RUSH HOLT (D-NJ)

    1. I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

    The core characteristics of a non-violent school atmosphere is a 
culture and environment that allows and encourages learning. All 
members are treated with respect and dignity. In terms of sharing the 
definition, I believe that the goals are shared with all stakeholders. 
I cannot envision a reason that would impede a school from sharing such 
a statement.

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two schools 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

    I believe that the availability of mental health professionals is a 
key component for maintaining a safe and secure learning environment. 
I've pasted links to two documents of interest. Below the links is the 
text from an article in the Washington Post (March 29, 2013) regarding 
the current status of these professionals in the Fairfax County Public 
Schools.

        http://www.nasponline.org/communications/press-release/
                      School_Safety_Statement.pdf

          http://curry.virginia.edu/articles/sandyhookshooting
                    Washington Post (March 29, 2013)

    A multimillion-dollar budget crunch in Fairfax County schools next 
year might force an unsustainable workload on the mental-health 
clinicians who help students cope with stress, anxiety and emotional 
crises, administrators said.
    The December mass shooting at Sandy Hook Elementary School in 
Newtown, Conn.--and other recent high-profile attacks involving 
shooters with mental illnesses--renewed public focus on mental health 
and started a national conversation about the role of school 
psychologists and social workers in students' lives. This year, several 
bills were introduced in Congress addressing a shortage of mental-
health professionals in schools.
    Fairfax County could face a similar shortage, school officials 
said, if additional funding is not included in next year's budget to 
hire more mental-health professionals.
    ``It's a challenge to meet all the needs of our kids,'' said Amy 
Parmentier, coordinator of social-work services in Fairfax schools. 
``Newtown has certainly tragically punctuated it. There's more to 
educating children than just academics.''
    This year, the ratio in Fairfax schools is one psychologist and one 
social worker per 2,200 general-education students. Most high schools, 
which average between 2,400 and 2,700 students, have only one school 
psychologist and one social worker.
    Fairfax staffing levels are far below national standards. The 
National Association for School Psychologists recommends one school 
psychologist per 500 students. The School Social Workers Association of 
America recommends one social worker with a master's degree per 400 
students.
    The ratio in Fairfax worsened during the recession, when the school 
system eliminated social worker and psychologist positions to save 
money while student enrollment continued to balloon.
    ``I would never say we have enough'' mental-health professionals, 
said Dede Bailer, who coordinates psychology services for the Fairfax 
schools. ``It would be wonderful if we had additional staffing. But we 
don't have the same number of positions that we had 10 years ago, and 
since then our population has increased.''
    Kim Dockery, assistant superintendent for special services, said 
that social workers and psychologists can be the first line of defense 
in schools, helping to do proactive screenings to address students' 
issues before they are manifested in bigger problems. But since most 
clinicians have such a high workload, they are often acting more like a 
last resort, attending to students who are in crisis. Crucial 
prevention work rarely happens, clinicians said.
    Clinicians said they tackle a variety of issues, including 
depression, anxiety, bullying, substance and alcohol abuse, family 
deaths and parents' divorces. Often, the clinicians are the only people 
students feel they can talk to openly about very personal concerns.
    Nikki Simmons, the mother of an 18-year-old former Fairfax student, 
credits the school system's clinicians with helping to save her 
daughter's life. ``They really helped her get out of her bad times,'' 
said Simmons. ``It was hell and back.''
    Simmons said that funding for more mental-health professionals is 
crucial and described Fairfax's clinicians as among the best in the 
region.
    She said her daughter began having mood swings during her freshman 
year. She started using drugs, drinking alcohol and cutting herself. 
The girl had thoughts of suicide.
    ``You're talking about an honor roll student to D's and F's in a 
matter of months,'' Simmons said.
    As a sophomore at Woodson High, her daughter met with Fairfax 
clinicians for about 30 minutes a day. Her dark moods began to lighten.
    ``She always had someone to go to whenever there was something 
wrong,'' Simmons said.
    Fairfax school psychologists said the county's increase in students 
directly correlates with an increase in need for mental-health 
services. In a 2011 survey, almost 30 percent of Fairfax students 
reported feeling symptoms of depression, and 16 percent said they had 
considered suicide during the previous year.
    Dockery requested more funding for clinicians this year to make up 
for the lost positions, hoping to add 25 positions to the budgeted 
total of about 280, an increase of less than 10 percent. She was 
denied.
    Superintendent Jack D. Dale said the School Board had not made 
mental health a priority during deliberations to craft the $2.5 billion 
budget.
    Facing a $60 million budget shortfall from the county, the school 
system is under pressure from the Board of Supervisors to make more 
cuts.
    Enrollment is expected to grow again next year, and a proportional 
number of social workers and school psychologists may not be hired 
without an amendment to next year's budget.
    In many cases, a clinician oversees hundreds of students at 
multiple schools.
    There are now eight psychologists who are each assigned to cover 
three schools and 63 who cover two school sites each. Among social 
workers, there are 18 who each have three schools and 49 who have two 
schools.
    Bailer said that assigning a clinician to multiple schools can lead 
to gaps in coverage.
    ``Sometimes kids just come by, and if you're there and they need to 
talk, that's when you can do your best intervention work,'' Bailer 
said. ``But if you're in three schools and you're not physically there, 
those conversations won't happen.''
    Dena Neverdon is a Fairfax schools social worker assigned to three 
schools: Vienna, McNair and Floris elementaries.
    ``Three schools is challenging,'' said Neverdon, who has worked for 
Fairfax schools since 2003. ``In an ideal world, I would only work with 
one school. If I was there every single day, I could do so much more.''
    Mary Ann Panarelli, the system's director of intervention and 
prevention services, said that more mental-health staffers are 
desperately needed.
    ``We are facing increased challenges to continue to do as well as 
we have,'' Panarelli said. ``We are meeting the needs, but at some 
point, there is a breaking point.''

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?

    Hazards are conditions or situations that have the potential for 
causing harm to people, property, or the environment. Hazards can be 
classified into three categories: natural, technological, and school 
specific-hazards. An examination of the potential natural, and 
technological hazards, and school specific-hazards formed the basis for 
the planning assumptions upon which the Facility Crisis Management 
Security Plan is developed.
    Each school has special and unique characteristics that influence 
the development of an individualized, comprehensive, multi-hazards 
school crisis, emergency management, and medical response plan. The 
school-based Crisis Management Team (CMT) should conduct hazard 
vulnerability and risk assessments to determine the strengths and 
weaknesses of their individual building and grounds; the school's 
social, emotional, and cultural climate; community and staff resources; 
and the unique concerns of individuals with disabilities and special 
needs. There is no standard method for prioritizing school hazards. All 
risk determinations are subjective and vary depending on the community 
and factors unique to the school. However, one commonly used method is 
to compare hazards based upon the likelihood of an event occurring and 
the extent of damage and trauma the event could cause the school. 
Assessment data must be routinely gathered and analyzed by the CMT and 
update the Facility Crisis Management Security Plan as necessary.
    A Hazard-Specific Appendix should include incident response 
procedures to reduce loss of life and minimize damage and trauma that 
cannot be prevented.
Natural Hazards
    A locality, due to its geographical location, is vulnerable to a 
wide array of hazards. To determine the natural hazards that present 
the greatest threat, a locality should consult with their local Office 
of Emergency Management. This office should have a quantitative and 
qualitative methodology using historical and anecdotal data, community 
input and professional judgment regarding expected hazard impacts to 
rank and prioritize those natural hazards which pose the most 
significant threat.
    For Fairfax County, Virginia, we have identified the following six 
(6) primary natural hazards as having the greatest impact on the school 
community:
    1. Tornadoes
    2. Hurricanes and Tropical Storms
    3. Severe Thunder Storms
    4. Severe Winter Storms
    5. Floods
    6. Extreme Temperatures
    While these primary hazards have their own characteristics, 
effects, and dangers, they often occur in conjunction with other 
weather and environment conditions that exacerbate the effects, i.e., 
lightning, high winds, hail, snow, sleet, freezing rain, and drought.
                                 ______
                                 

       Dr. Osher's Response to Questions Submitted for the Record

                         REP. RUSH HOLT (D-NJ)

    I have introduced legislation in the House, the Tyler Clementi 
Higher Education Anti-Harassment Act (H.R. 482), that would require all 
institutions of higher learning to clearly define their anti-harassment 
policies, and distribute these policies to students. In your opinion, 
what are the core characteristics of a ``non-violent'' school 
atmosphere? In your experiences with the schools you have worked with, 
are schools engaging in the process of defining what a safe and non-
violent atmosphere means, and, if so, are they sharing their definition 
of a non-violent environment with the faculty, staff, students and 
parents of the school community? What reasons can you identify that 
would impede a school from engaging in this process?

    Thank you Congressman Holt for the question and your efforts to end 
harassment at all levels of learning. My own focus has been on safe and 
supportive environments in primary and secondary schools. As a former 
Dean of both a liberal arts college and two professional schools, I 
believe that those in higher education can learn from the lessons and 
experiences of educators in high school and grade school.
    The science is clear. All students require safe and supportive 
schools if they are to succeed. If schools want to maximize learning, 
schools should create strong conditions for learning and well-being, 
places where students feel physically and emotionally safe, connected 
to and supported by their teachers, challenged and engaged in learning, 
and places where their peers have good social and emotional skills. 
This is as true for higher ed as it is for K-12.
    A positive campus culture and climate at institutions of higher 
education can maximize safety, engagement, and academic success and 
minimize disengagement, academic failure, and attrition or unhealthy 
and even such dangerous behaviors as binge drinking and interpersonal 
violence. Schools can maximize the learning and retention of all 
students they admit by creating cultures and conditions for learning 
and student/staff support that promote academic engagement, embrace 
diversity, and support mental and physical wellness.
    When students feel physically and emotionally safe and connected to 
their school, they can be better students. But when they feel anxious 
or experience bullying, harassment, prejudice, or marginalization, they 
won't perform to their potential. When students feel threatened, their 
defensive responses impede learning and engagement, and this response 
may be particularly pronounced for students who have experienced 
trauma, whether as a child or as an adult.
    Students benefit from educators who understand their social, 
emotional, behavioral, and academic needs and from supportive schools. 
Whether third graders or college freshmen, they learn more when they 
feel connected and attached to their teachers or others in their 
schools.
    While research and practice support these conclusions, many schools 
fail to address the need for student support and strong conditions for 
learning. The primary impediments are a lack of will and, where will 
isn't wanting, of educators' capacity to address the social and 
emotional needs of students and to build strong conditions for 
learning. The U.S. Departments of Education and Health and Human 
Services have recognized this need by creating the National Center on 
Safe and Supportive Learning Environments and focusing it broadly on 
elementary, secondary, and higher education.

                      REP. FREDERICA WILSON (D-FL)

    I think that in every tragic incident we hear of in our schools, we 
always end up saying someone should have done something or someone 
could have done something to prevent it.
    There is not a one size fits all solution. I represent two school 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I that that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

    My short answer, Congresswoman, is yes, increasing the number of 
counselors--as well as social workers and mentors--could have a 
significantly positive impact. That said, we also need to make sure the 
counselors are allowed to be counselors. Too often, they are asked to 
take on administrative duties, or to serve as study period monitors, or 
perform a host of other tasks unrelated to their mission.
    I understand that as administrative workloads increase and school 
district budgets get tight, the easy answer is to shift duties to 
counselors. But that's a self-defeating path. Counselors and social 
workers in particular can play a vital role in the development of 
youth, as I've seen time and time again.
    The connectedness and the experience of support that are so 
important for students are exactly what counselors and social workers 
can provide. Students who feel ``connected'' to a school are more 
likely to have improved attitudes about learning and their teachers; 
heightened academic aspirations, motivation, and achievement; and more 
positive social attitudes, values, and behavior. Research also shows 
that students who feel alienated from their school community are most 
at risk for engaging in delinquency and violence. So, in my view, 
counselors, social workers, and mentors are in the front lines in youth 
development.
    Yet, since counselors and social workers can't reach every student, 
it's also important to build and support every teacher's capacity to 
connect in positive ways with students. This part of the challenge is 
not one of will--teachers want good relationships with students--but of 
building teachers' technical and social and emotional skills and giving 
them the support needed to connect with students. Doing this, in turn, 
depends on refining our accountability systems to include the 
conditions for learning.

                      REP. SUZANNE BONAMICI (D-OR)

    Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Cascadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate are retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is a question 
for all of the panelists: what kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
school shooting? What are the special needs that must be met and the 
challenges faced?

    While I have written about this in Safeguarding Our Children: An 
Action Guide Revised and Expanded and addressed them as a matter of 
policy in my international work, I do not have firsthand experience in 
this sphere so I'll largely defer to my colleagues on the panel.
    However, let me point out, Congresswoman, that the kind of 
potential dangers you are concerned about are some of those that must 
be addressed to create a safe school environment. You mentioned that an 
earthquake is on the minds of many Oregonians. If it is on the minds of 
parents, it is on the minds of their children. So by developing a way 
to respond to natural disasters, or any catastrophic event, we are 
addressing the essential need for children to feel and be safe in their 
schools. And doing this in a way that also builds conditions for 
learning and student success reaches more students, avoids 
fragmentation, and makes more efficient use of public and private 
resources. For example, a positive climate, which can reduce or 
eliminate some of the risk factors that feed aggression and violence, 
can support crisis preparation and recovery while building and 
supporting resiliency so students and adults can better survive and 
cope with trauma and disaster.
    In fact, some elements of school climate and conditions for 
learning that are closely allied to the learning process, are 
particularly able to help students handle and respond to crises. These 
conditions include the perceptions and experience of physical and 
emotional safety, connectedness and support, academic challenge and 
support, and student social and emotional competence. Just as a lack of 
safety can dampen hope, optimism, self-confidence, and affect a 
student's threshold for vigilance and arousal, the opposite experience 
of connectedness and support stemming from social and emotional 
learning can build student and teacher relationships that support 
social emotional and academic learning and equip students and adults to 
respond to and recover from crises.
                                 ______
                                 

      Mr. Pompei's Response to Questions Submitted for the Record

                      REP. SUZANNE BONAMICI (D-OR)

    1. Many of my colleagues today have focused on school safety with 
respect to violence in schools. In Oregon, schools are also focused on 
creating emergency plans for natural disasters. Oregon is due for a 
major earthquake along the Casacadia fault, which will likely result in 
a massive tsunami. Along with the dangers of collapsing buildings and 
infrastructure, many schools, like those in Seaside, Oregon, would lie 
directly in the path of such an event. Because of Oregon's proximity to 
the fault, response time once an earthquake is detected will be 
limited. This is a situation that Oregonians take seriously, and 
efforts to relocate and retrofit schools are underway.
    Mr. Ellis mentioned that emergency planning focuses on three 
categories of hazards, including natural disasters. This is question 
for all of the panelists: What kind of experience do you have creating 
emergency plans for natural disasters? How is planning for a natural 
disaster similar to and different from planning for something like a 
schools shooting? What are the special needs that must be met and 
challenges faced?

    While I do not have personal experience creating emergency plans 
for natural disasters, I understand the unique challenges they provide. 
Additionally, I know well the challenges any emergency--man-made or 
natural--can create in schools and among students. Schools and 
districts must prepare for natural disasters like any other crisis.
    Schools must develop emergency preparedness and crisis response 
plans that help schools prevent, prepare for and respond to 
emergencies. The plans should address a variety of emergencies that are 
both predictable and unpredictable.
    Similarities in planning:
    <bullet> Plans for all types of emergencies must include training 
for school staff, pre-determined communication throughout an emergency, 
and recovery procedures.
    <bullet> Schools and districts must form crisis response teams 
which establish a chain of command well in advance of any incident. Who 
is in charge? What are individuals' roles and responsibilities? Etc.
    <bullet> Schools must assess the types of crises and emergencies 
their region is prone to. Threat assessments should be conducted not 
only for human threats of violence, but for natural disasters. Plans 
should assess whether natural disasters, such as hurricanes, floods, 
earthquakes, fires or tornadoes, are likely in a community.
    Differences in planning:
    Weather cannot be stopped but schools must always strive to prevent 
other types of crises. For instance, reporting suspicious behavior of a 
student may prevent or delay a violent incident and provide schools the 
needed time to protect students and minimize damage.
    <bullet> Natural disasters can be anticipated (such as your example 
of a school district residing on a fault line), often more so than 
violent incidences of a human design. Unfortunately, there is often 
little or no warning before earthquakes and other natural emergencies 
occur.
    <bullet> School emergency plans must provide guidance for safe 
locations during natural disaster, such as underground shelters for 
schools prone to tornadoes or safe areas for students and faculty in 
earthquake-prone areas.
    <bullet> Plans must take into consideration the correct responses 
to natural disasters. For instance, should a school go into lockdown, 
shelter-in-place, or evacuate?
    There are a number of special needs that must be considered in 
planning for natural disasters--and especially for the repercussions 
after a disaster occurs. Natural disasters or manmade catastrophes such 
as building explosions, bridge collapse, floods, hurricanes, tornadoes 
and earthquakes can have serious psychological consequences similar to 
those experienced during acts of violence.
    <bullet> Issues related to the destruction of homes, property, 
heirlooms and livelihoods will compound the feelings of loss and 
powerlessness in adults and children. These disasters often multiply 
normal stressors at home (such as finances) and create new stressors 
from problems caused by the disaster--homelessness, transportation 
issues and lack of basic services.
    <bullet> When recovering from natural or manmade disasters, it's 
important that families remain together as much as possible or 
practical. Children will pick up feelings of anxiety from their 
parents, so it's critical to talk about what is happening and how the 
family will recover together. Additionally, children must return to a 
normal routine as soon as possible.
    Schools must consider the appropriate role they have to play in the 
aftermath. As a school counselor, I understand how stressors at home 
impact students' ability to function and perform at their best in 
school.

                               RESOURCES:

The National Education Association's Health Information Network has a 
        Crisis Guide for schools planning for all types of emergencies. 
        http://crisisguide.neahin.org/crisisguide/images/
        SchoolCrisisGuide.pdf
The American School Counselor Association's The Professional School 
        Counselor and Crisis/Critical Incident Response in the Schools. 
        http://www.schoolcounselor.org/files/PS_Crisis_Critical.pdf
The National Association for School Psychologists provides excellent 
        information for schools planning for natural disasters. http://
        www.nasponline.org/resources/crisis_safety/
        naturaldisaster_teams_ho.aspx

                         REP. RUSH HOLD (D-NJ)

    1. I am a cosponsor of legislation, the Student Support Act (H.R. 
320), which would provide states with money to improve the ratio of 
mental health providers (school counselors, psychologists, and guidance 
counselors) to students in schools of each state. Mr. Pompei, in your 
experience as a school counselor, what is the maximum number of 
students a school counselor can be responsible for in order to do their 
job effectively? Should this caseload responsibility be adjusted to 
reflect the changing academic, emotional, and social development needs 
of students at different grade levels?

    The National School Counselors Association recommends a ratio of no 
more than 250 students to each counselor in grades K-12. This should be 
the very maximum number of students any one counselor has under his or 
her purview.
    In California, where I am from, the ratio of school counselor to 
student is 1:1,000. This leaves vital student prevention and 
intervention services unaddressed, which is a disservice for students 
and society as a whole. The maximum number of students for each school 
counselor should never go above 250 as recommenced by the American 
School Counselor Association. In addition, the professional school 
counselor's responsibilities should include those services that 
directly address the diverse needs of students. Unfortunately, many 
administrators or districts require the professional school counselor 
to do clerical work, data entry, student enrollment, test 
administration and other items that do not support the uniquely 
qualified skills and training school counselors possess. Our students 
are entering society ill prepared and many with untreated and 
undiagnosed mental health issues as a result. Increasing the number of 
professional school counselors will make schools safer, decrease 
student drop out, increase academic success and make society safer as 
students will get these vital services during their adolescence.

                               RESOURCES

The American School Counselor Association's Guide to Appropriate and 
        Inappropriate Activities for the Professional School Counselor: 
        http://www.schoolcounselor.org/files/appropriate.pdf
The American School Counselor Association's Guide on the Role of the 
        Professional School Counselor: http://www.schoolcounselor.org/
        files/RoleStatement.pdf

                      REP. FREDERICA WILSON (D-FL)

    1. I think that in every tragic incident we hear of in our schools, 
we always end up saying someone should have done something or someone 
could have something to prevent it.
    There is not a one size fits all solution. I represent two school 
districts. One has a full police force; the other has just a few SROs. 
That's the difference in the school districts, but I think that one 
thing that should be available to all schools is enough counselors and 
enough social workers and mentors for the children. That's all of them, 
whether they have SROs or whatever else they have.
    I don't think it's hard for counselors to detect who needs help. 
The way that the funding is now for counselors, there are so few. As a 
result, children who have problems relating to their parents, relating 
to their peers, don't have anyone that they really trust in the 
schools. The few counselors are always busy planning for college, 
testing and other activities. So, the one thing that I think we need to 
do is expand the pool of counselors, social workers and mentors. 
Because a lot of times, it is a matter of miscommunication.
    I have had the opportunity to talk to so many children who are 
incarcerated. One person could help them through a bad day, anger, 
bullying, mommy and daddy getting a divorce, mommy getting beat-up the 
night before. I heard someone say that one school had a counselor for 
every grade level. What a difference it would make for children in 
schools. I would like to find out from the panel: how do you feel about 
increasing the number of counselors?

    Professional school counselors are certified/licensed educators 
with the minimum of a master's degree in school counseling and are 
uniquely qualified? to address the developmental needs of all students 
through a comprehensive school counseling program addressing the 
academic, career and personal/social development of all students. The 
American School Counselor Association recommends a school counselor to 
student ratio of no more than 1:250. In California, where I am from, 
the school counselor to student ratio is over 1:1,000 leaving us unable 
to appropriately and effectively service the needs of students. In 
fact, many students who are in need go completely un-serviced with 
these large caseloads. Professional school counselors are the trusted 
adults on campus where students know they can confidentially share 
their struggles, concerns and challenges. This allows for early 
intervention and prevention services that otherwise go unaddressed. 
With these enormous caseloads, it is not only a disservice for our 
students but society as a whole. These young people go out into society 
ill prepared and many with untreated and undiagnosed mental health 
issues as a result. Increasing the number of professional school 
counselors will make schools safer, decrease student drop out, increase 
academic success and make society safer as students will get these 
vital services during their adolescence.

                               RESOURCES

Here is the American School Counselor Associations Guide to Appropriate 
        and Inappropriate Activities for a Professional School 
        Counselor: http://www.schoolcounselor.org/files/appropriate.pdf
Here is the American School Counselor Association's Guide on the Role 
        of the Professional School Counselor: http://
        www.schoolcounselor.org/files/RoleStatement.pdf
                                 ______
                                 
    [Whereupon, at 2:16 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
